Report No. D-2008-098          May 22, 2008




    Internal Controls Over Payments Made in
             Iraq, Kuwait and Egypt
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Secondary
  Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-
  8932. Ideas and requests can also be mailed to:

                        ODIG-AUD (ATTN: Audit Suggestions)
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms

CERP                  Commander’s Emergency Response Program
C.F.R.                Code of Federal Regulations
CPA                   Coalition Provisional Authority
DCIS                  Defense Criminal Investigative Service
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DoD FMR               DoD Financial Management Regulation
DSSN                  Disbursing Station Symbol Number
FAR                   Federal Acquisition Regulation
OMB                   Office of Management and Budget
PPA                   Prompt Payment Act
SF                    Standard Form
SIGIR                 Special Inspector General for Iraq Reconstruction
U.S.C.                United States Code
USD/AT&L              Under Secretary of Defense for Acquisition, Technology, and
                       Logistics
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                              May 22, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Intcmal Controls Over Payments Made in Iraq, Kuwait, and Egypt
         (Report No. D-2008-098)


      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
provide additional comments on Recommendations A.2., C.I., C.2., and C.3. In addition,
we request that the Assistant Secretary of the Anny (Financial Operations) provide
additional comments on Recommendation A.3. Management should provide comments
on the final report by July 22,2008.

        If possible, please send management comments in electronic fonnat (Adobe
Acrobat file only) to auddts@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. Jfyou arrange to send classified comments
electronically, they must be sent over the SECRET lntemet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack L. Annstrong at (317) 510-4801, extension 274 (DSN 699-480 I) or
Mr. Craig W. Michaels at (317) 510-480 I, extension 230 (DSN 699-4801). See
Appendix G for report distribution. The audit team members are listed inside the back
cover.




                                      f~Om~
                                      Patricia A. Marsh, CPA
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-098                                                       May 22, 2008
   Project No. (D2006-D000FL-0208.000)

       Internal Controls Over Payments Made in Iraq, Kuwait, and
                                 Egypt

                                 Executive Summary

Background. Between April 2001 and June 2006, the Army made 183,486 commercial
and miscellaneous payments, totaling $10.7 billion, from 7 Army contingency disbursing
stations in Iraq, Kuwait, and Egypt. The contingency disbursing stations sent the
payment vouchers to the accounting office at the Defense Finance and Accounting
Service (DFAS) site in Rome, New York. The Defense Criminal Investigative Service
determined that there had been only a limited review of the completeness, accuracy, and
propriety of these payment vouchers and that the potential existed for fraud, waste, and
abuse. As a result, we reviewed the payment vouchers to determine whether internal
controls over the payments supporting the Global War on Terror provided reasonable
assurance that payments were properly supported and recorded.

Results and Management Comments. The DoD has committed significant resources to
the Global War on Terror. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer (USD[C]/CFO) and DFAS should have been directly involved in
supporting military finance operations. However, DoD did not have adequate guidance
to support financial operations in a military contingency environment. DoD did not have
adequate internal controls over funds disbursed by contingency disbursing stations. On
May 16, 2008, the office of the USD(C)/CFO notified us that the DoD Financial
Management Regulation, Volume 10, Chapter 8, was revised to provide guidance on
commercial payment vouchers and supporting documents in contingency operations. The
new guidance is posted on its website. This action and the recommendations in this
report, coupled with other actions already underway in DoD, will improve DoD finance
operations in the military contingency environment.

        Finding A. Commercial Payments. The Army did not maintain adequate
internal controls over commercial payments to ensure that they were properly supported.
We reviewed all payment support documentation for compliance with 53 statutory and
regulatory requirements. However, after taking into consideration the reasonableness of
completing all 53 requirements when making a payment in a military contingency
environment, we determined that 27 of those requirements were the minimum necessary
information to support a payment and mitigate the risk of making erroneous payments.
We determined that the remaining 26 criteria were necessary for compliance with laws
and regulations but were not essential information to preclude an erroneous payment in a
military contingency operation. As a result, we estimated that the Army made
$1.4 billion in commercial payments that lacked the minimum supporting documentation
and information for a valid payment, such as certified vouchers, proper receiving reports,
and invoices. Payments that are not properly supported do not provide the necessary
assurance that funds were used as intended. In addition, we estimated that $6.3 billion of
commercial payments contained the 27 criteria needed to properly support a payment but
did not comply with other statutory and regulatory requirements and were still missing
items such as taxpayer identification numbers, contact information, and payment terms.
The USD(C)/CFO, the Assistant Secretary of the Army (Financial Management and
Comptroller), and the Director, DFAS have initiated several actions to address the
internal control deficiencies identified during this audit. The Army and DFAS are
transferring disbursing operations for contract payments back to the U.S., and DFAS
deployed vendor pay and military pay subject matter experts to Iraq and Kuwait. The
Army and DFAS are issuing guidance regarding the minimum acceptable level of
supporting documentation for a commercial payment, as well as implementing a voucher
support checklist and metrics to measure compliance. The Army and DFAS are also
providing in-theater scanning technology to facilitate the review of voucher support
documentation. Army and DFAS are also taking actions to improve training of finance
personnel.

        We recommended that the Under Secretaries of Defense for Acquisition,
Technology and Logistics (USD/AT&L) and Comptroller/Chief Financial Officer resolve
the conflicts in the Office of Management and Budget regulation implementing the
Prompt Payment Act regarding disbursement support requirements in military
contingency operations. However, working to resolve this conflict should not preclude
specifying in regulation what minimum information is needed to support a proper
payment. We also recommended that the USD(C)/CFO consolidate guidance that cites
the Federal Acquisition Regulation and DoD 7000.14-R, DoD Financial Management
Regulation requirements to support commercial payments and to include addressing the
minimum essential information needed to support a proper payment. We further
recommended that the Assistant Secretary of the Army (Financial Management and
Comptroller) review the 125 commercial payments that were not properly supported,
ensure that deployed finance personnel are properly trained, and direct the finance
personnel to verify completion of a commercial payment support checklist. We also
recommended that the Assistant Secretary include the reported internal control
deficiencies as material weaknesses in the Annual Statement of Assurance. We also
recommended that the Assistant Secretary establish a formal agreement with the Director,
DFAS clarifying responsibilities for proper accountability of commercial payment
vouchers. Management either partially concurred or concurred with recommendations.

        Finding B. Contingency Operations and the Prompt Payment Act. The DoD
Financial Management Regulation and Defense Federal Acquisition Regulation
Supplement did not contain guidance addressing procedures to be used in a military
contingency environment. The Office of Management and Budget allowed the DoD
discretion in establishing the scope of contingency operations when applying the Prompt
Payment Act. However, DoD has not established procedures addressing contingency
operations. In addition, DoD needs to obtain clarification on the intent of the Office of
Management and Budget regulation. As a result, DoD personnel relied upon existing
requirements of the DoD Financial Management Regulation and Defense Federal
Acquisition Regulation Supplement for making and processing commercial payments in
Iraq and Kuwait. We recommended that the USD/AT&L and USD(C)/CFO coordinate
to obtain legal advice to determine the impact of contract clauses that require making
interest payments for existing contracts in military contingency operations. On March 5,
2008, the DoD Office of General Counsel issued a legal opinion that stated “the
Department has sufficient legal authority to pay interest penalties [or obtain early
payment discounts] pending resolution of the regulatory [conflict].”

        Finding C. Payments to Foreign Governments. DoD did not maintain a
complete audit trail to facilitate transparency regarding $1.8 billion of seized and vested
assets payments made to Iraqi representatives to ensure that the funds were accounted
for, audited, and used to assist the Iraqi people. In addition, DoD did not maintain a

                                             ii
complete audit trail over $134.8 million in Commander’s Emergency Response Program
(CERP) payments made to representatives of foreign governments. As a result, DoD was
unable to provide reasonable assurance that the seized and vested asset funds disbursed
were fully used to assist the Iraqi people, as prescribed in Executive Order 13290. Also,
DoD is unable to ensure that CERP funds provided to Coalition Partners have been used
for their intended purposes. We recommended that USD(C)/CFO update the DoD
Financial Management Regulation to specify the supporting documentation needed for
seized and vested asset payments to foreign government representatives, require payment
reconciliations, and address the use of Coalition Partners as paying agents. The Deputy
Chief Financial Officer stated that: audit trail documentation should not include budget
details and spending plans; all funds advanced to Coalition Partners are already required
to be reconciled; and a waiver is required for all non-U.S. citizens acting as paying
agents. A Presidential memorandum dated April 30, 2003, requires seized and vested
Iraqi assets to be properly accounted for, audited, and used to assist the Iraqi people.
However, without support for the accounting and use of seized and vested assets, such as
spending plans and budgets, there was no audit trail to demonstrate that the funds were
used in accordance with the Executive Order. In addition, the DoD Financial
Management Regulation needs to be updated to require reconciliations for payments to
Coalition Partners and waivers for non-U.S. citizens acting as paying agents. Only
payments to the United Kingdom were being reconciled, and the waiver request and
approval process is not currently defined in DoD regulations.

        Finding D. Advanced Iraqi Funds. The U.S. Army Corps of Engineers
retained $5.7 million in advanced seized and vested Iraqi assets in a suspense account for
21 months and had not made these funds available to pay for Iraqi debt with the U.S.
Government or for other Iraqi projects. Based on our recommendation, the Corps
collaborated with USD(C)/CFO regarding the disposition of these funds so that they
could be put to better use.

       We request that management provide comments on the final report by
July 22, 2008. See the Finding sections for discussion of management comments and the
Management Comments section for the full text of the comments.




                                            iii
Table of Contents
Executive Summary                                                 i

Background                                                       1

Objectives                                                       3

Review of Internal Controls                                      3

Findings
     A.    Commercial Payments                                    4
     B.    Contingency Operations and the Prompt Payment Act     22
     C.    Payments to Foreign Governments                       26
     D.    Advanced Iraqi Funds                                  33

Appendixes
     A.    Scope and Methodology                                 36
     B.    Statistical Sampling Methodology                      38
     C.    Prior Coverage                                        43
     D.    Disbursement Guidance                                 45
     E.    Results of Voucher Review                             48
     F.    Payment Criteria Comparison                           51
     G.    Report Distribution                                   52

Management Comments
     Office of the Under Secretary of Defense for Acquisition,
        Technology, and Logistics                                55
     Office of the Under Secretary of Defense (Comptroller)      57
     Department of the Army                                      61
     Defense Finance and Accounting Service                      64
     United States Army Corps of Engineers                       67
Background
    This audit is the result of a Defense Criminal Investigative Service assessment
    saying that there had been only limited review of the completeness, accuracy, and
    propriety of contingency payment vouchers and that there existed the potential for
    fraud, waste, and abuse. This report addresses the supporting documentation for
    payments made by Army contingency disbursing stations and the processes used
    by the Army and Defense Finance and Accounting Service (DFAS) to review
    payment information.

    Contingency Payments. The DoD has committed significant resources to the
    Global War on Terror. Army contingency disbursing stations perform military
    finance and accounting functions, including military, travel, and commercial
    payments (contract or vendor payments). From April 2001 through June 2006,
    the Army made 183,486 commercial and miscellaneous payments totaling
    $10.7 billion, originating from 7 contingency disbursing stations in Iraq, Kuwait,
    and Egypt. Table 1 provides the number of vouchers and total amounts paid by
    disbursing station symbol number (DSSN).

          Table 1. Universe of Commercial and Miscellaneous Payments
                                         Number of                   Value
        DSSN          Location           Vouchers                (in millions)
         5579            Iraq                 14,124             $    945.2
         8547            Iraq                 42,473                  889.1
         8550            Iraq                 26,670                  933.9
         8551          Kuwait                 27,586                 3,643.8
         8589            Iraq                  8,808                  306.8
         8748          Kuwait                 62,193                 3,984.1
         8788           Egypt                  1,632                    21.1
        Total                                183,486              $10,724.0


    From this universe of payments, we selected a statistical sample of 789 payments
    totaling $3.5 billion to review. Appendix B contains the sampling plan and
    results. As shown in Table 2, our sample of 789 payments contained
    702 commercial payments and 87 noncommercial payments (Findings A and B).
    Noncommercial payments included transfer payments to the Iraqi ministries and
    Coalition Partners (Finding C), advances to the U.S. Army Corps of Engineers
    (Finding D), and casual payments.




                                         1
                           Table 2. Sample Payment Categories
                                                Number of                                Value
           Payment Type                          Vouchers                            (in millions)
           Commercial (Findings A and B)           702                                 $1,485.4
           Foreign Government (Finding C)                           75                   1,960.6
           Advanced Iraqi Funds (Finding D)                           3                     20.1
                                 *
           Casual Payments                                            9                       0.1
           Total                                                   789                 $3,466.2
           *
               The casual payments were adequately supported

           Accounting for Contingency Payments. DFAS Rome, New York, is the
           accounting office for payments made by the contingency disbursing stations in
           Iraq and Kuwait. Once a day, the Army contingency disbursing stations transmit
           electronic files that contain the DD 2657 form, “Daily Statement of
           Accountability,” and an electronic file of disbursements to DFAS Rome. 1 DFAS
           Rome uploads the electronic file into the Standard Finance System in order to
           perform the accounting for the Army contingency payments. DoD 7000.14-R,
           DoD Financial Management Regulation (DoD FMR), volume 10 requires that the
           accounting office receive copies of payment vouchers, invoices, and receiving
           reports. Each week the contingency disbursing stations mail the original payment
           vouchers and all supporting documentation to DFAS Rome. DFAS Rome
           manually matches payment vouchers to the entries in the Standard Finance
           System file.

           Disbursement Guidance. Section 3325, title 31, United States Code (U.S.C.)
           asserts that disbursing officers should only disburse money if a voucher has been
           certified by an authorized certifying officer. This statute further discusses the
           disbursing officer’s examination of a voucher to determine whether: it is in
           proper form; it has been certified and approved; and it has been computed
           correctly. The official certifying the voucher is responsible for the information on
           the voucher and supporting records.

           The Federal Financial Management Improvement Act of 1996 requires that
           agencies comply with Federal accounting standards and Federal system
           requirements. The Office of Federal Financial Management, “Core Financial
           Systems Requirements,” states that audit trails are essential to providing support
           and must exist for recorded transactions.

           The Federal Acquisition Regulation (FAR) and DoD FMR provide regulatory
           requirements that implement the public laws discussed above. Commercial
           payments should be supported by documents containing the essential data
           required in these statutes. The FAR Part 13, “Simplified Acquisition
           Procedures,” provides policies for the acquisition of supplies and services. In
           addition, the FAR Part 32, “Contract Financing,” lists the criteria required for a
1
    The purpose of the DD 2657 is to summarize all disbursements and collections made during the business
    day by the disbursing officer and all deputies, agents, and cashiers.



                                                      2
     proper invoice and receiving report to support a payment. Appendix E provides
     further detail on statutory and regulatory compliance criteria to determine whether
     a payment was properly supported.

     The DoD FMR defines financial management responsibility for DoD components.
     The DoD FMR also defines the requirements for supporting payments made to
     vendors and contractors. The DoD FMR, volume 10 specifically prescribes the
     policy for:

         •   ensuring that vendors or contractors are entitled to payment for materials
             and services delivered to the Government;

         •   ensuring timely disbursements to vendors or contractors; and

         •   preparing payment vouchers and keeping contract, disbursement, and
             accounting records complete and accurate.

     The DoD FMR, volume 5 governs DoD disbursing policy by establishing
     standards, responsibilities, procedures, and liability for disbursing officers,
     certifying officers, and accountable officials throughout DoD. Appendix D
     provides further detail on disbursing guidance.

Objectives
     Our overall audit objective was to determine whether internal controls over
     payments made in Iraq, Kuwait, and Egypt supporting the Global War on Terror
     provided reasonable assurance that payments were properly supported and
     recorded. See Appendix A for a discussion of the scope and methodology and
     Appendix C for prior coverage related to the objective.

Review of Internal Controls
     We identified material internal control weaknesses related to payments made in
     Iraq, Kuwait, and Egypt in support of the Global War on Terror, as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. The Army’s internal controls did not ensure proper support for
     the commercial payments and that funds were used as intended. The Army
     should address these internal control deficiencies as material weakness in its
     Annual Statement of Assurance. Implementing Recommendations A.1 through
     A.4, B.1 through B.3, and C.1 through C.3, will improve the internal controls over
     the Army’s payments made in military contingency operations. We will provide a
     copy of the report to the senior official responsible for internal controls over
     Army disbursements made during military contingency operations.




                                           3
                    A. Commercial Payments
                    The internal controls over commercial payments made by seven Army
                    contingency disbursing stations were inadequate for commercial payment
                    support. This occurred because Army finance personnel did not ensure
                    that payment voucher documentation was available and complete, and
                    finance personnel were not adequately trained. In addition, Army and
                    DFAS internal control responsibilities for commercial payments in
                    contingency operations needed to be clearly defined. As a result, we
                    estimated that the Army made $1.4 billion in commercial payments that
                    lacked the minimum documentation for a valid payment, such as properly
                    prepared receiving reports, invoices, and certified vouchers. We also
                    estimated that the Army made an additional $6.3 billion of commercial
                    payments that met the 27 criteria for payment but did not comply with
                    other statutory and regulatory requirements. These other requirements
                    included taxpayer identification numbers, contact information, and
                    payment terms. Payments that are not properly supported do not provide
                    the necessary assurance that funds were used as intended. In addition,
                    inadequate audit trails for payments resulted in unreliable disbursement
                    amounts reported in the Army management reports and DoD financial
                    statements.

       Commercial Payment Review
           As of June 2006, 7 Army contingency disbursing stations made an estimated
           149,327 payments for $7.8 billion that did not meet all statutory or regulatory
           requirements. 2 (Appendix E lists the criteria used to evaluate each commercial
           payment voucher.) We based the estimated amount of commercial payments on a
           sample of 702 payments. Of the 702 commercial payments, 662 had errors in
           payment support documentation, and some had more than one error. There were
           125 payments not supported by the minimum documentation and information,
           which includes properly prepared receiving reports, invoices, and certified
           vouchers. An additional 537 commercial payments had the minimum
           documentation required for payment but did not meet other documentation and
           information requirements, such as taxpayer identification number, method of
           disbursement, and contact information. Only 40 commercial payments contained
           no errors. These transactions occurred between April 2001 and June 2006. Our
           review of the 702 payments did not provide evidence that the supporting
           documentation for these commercial payments improved during this period. The
           results of our review are depicted in Figure 1.




2
    There is a rounding difference between the estimated $7.8 billion in payments with discrepancies and the
    combined total of the payments either not meeting minimal support requirements or identified as
    supportable but noncompliant.



                                                       4
  40 Vouchers totaling $6.9 million                               537 Vouchers totaling
                                                                  $1,341.5 million




  125 Vouchers totaling
  $137.0 million

              Noncompliant            Not Properly Supported   No Errors
Figure 1. Voucher Review Results

Documentation Requirements. DoD had not specified adequate documentation
requirements for disbursements made in a contingency environment. In
November 2007, the DFAS Accounting Policy Office raised concerns that the
Office of Management and Budget (OMB) in 5 Code of Federal Regulations
(C.F.R.) Part 1315 (2001), which implements the Prompt Payment Act (PPA), has
conflicting guidance related to documentation requirements for payments made in
military contingency operations. 5 C.F.R. Part 1315, section 1315.5 states,
“Payments made under a military contingency may be made as soon as the
contract, proper invoice, receipt and acceptance documents or any other
agreement are matched.” The FAR, Defense Federal Acquisition Regulation
Supplement (DFARS), and DoD FMR implement these documentation
requirements. However, Section 1315.5 appears to conflict with 5 C.F.R.
Part 1315, section 1315.1, which states that vendor payments related to military
contingency operations are exempt from the PPA. The FAR, DFARS, and DoD
FMR do not address this exception or how it affects voucher documentation
requirements in military contingency operations. As a result, Army finance
personnel were required to follow existing documentation requirements
prescribed in the FAR, DFARS, and DoD FMR. In addition, where PPA clauses
were included in contracts, Army finance personnel were required to follow PPA
documentation requirements prior to making payments. Finding B provides
additional detail on the applicability of the PPA to military contingency
operations.

We reviewed all payment support documentation for compliance with
53 statutory and regulatory requirements; however, only 27 of the requirements
were necessary to support a payment and to reduce the risk of making erroneous
payments. These 27 requirements are essential to support a payment in a military
contingency operation. We determined that the remaining 26 criteria were
necessary for proper compliance with laws and regulations but were not essential
information to preclude an erroneous payment in a military contingency
operation.

Minimum Documentation for Payment. The following examples came from
our review of payment vouchers against the 27 criteria required to minimally
support a commercial payment in a military contingency operation.


                                           5
        Receiving Report. Army finance personnel did not include
documentation of the receipt of goods or services for 23 vouchers. According to
the DoD FMR, volume 10, chapter 1 and FAR 32.905 “Payment Documentation
Process,” all invoice payments must be supported by a receiving report. The
DoD FMR, volume 10, chapter 8 states that vouchers should not be certified for
payment before receipt of all supporting documents, including the receiving
report. It also requires the disbursing office to review supporting documents on a
periodic basis to ensure that those documents are available for review and to
provide a copy of the receiving report to the accounting office. DFAS Rome is
the accounting office for Army contingency disbursing stations. One voucher
payment for $11.1 million was missing both the receiving report and invoice.
This payment was to a U.S. company; however, we could not identify the goods
or services purchased. Without a receiving report, there is no evidence that the
requesting organization received the goods or services purchased. In addition,
because this voucher was also missing an invoice, it is unclear how the disbursing
office determined that the vendor was entitled to payment or the amount that was
due. The legitimacy of the payment is questionable given the absence of these
supporting documents.

         Invoice. Army finance personnel did not include vendor invoices
supporting the amount paid for 23 vouchers. FAR 32.905 states that payments
should be based on receipt of a proper invoice. The DoD FMR, volume 10,
chapter 8 states that vouchers should not be certified for payment before receipt
of all supporting documentation, including the invoice. It also requires that a
copy of the invoice be provided to the accounting office. Like the $11.1 million
voucher discussed above, a voucher for a $963,750 cash payment to a vendor was
missing both the invoice and receiving report. As a result, we could not identify
the goods or services purchased. The absence of needed information on the
voucher, combined with the missing invoice and receiving report, prevented a
determination of whether the vendor was legally entitled to payment.

        Certifying Officer Signature. Army finance personnel paid five
vouchers that were not certified for payment, three of which exceeded $8 million.
These three payments were to U.S. companies for vehicle rentals and support
services. Section 3325, title 31, U.S.C.; Treasury Financial Manual, volume 1,
part 4, chapter 2000; and the DoD FMR, volume 5, chapter 11 state that
disbursing officers should approve payment only for vouchers that have been
signed by an authorized certifying officer. The vouchers appeared to contain the
necessary supporting documents, but should not have been paid because they
were not properly certified. The certifying officer provides an important
separation of duties function by ensuring that the goods or services received are
correctly documented to entitle a payee to a disbursement of funds. The
certification process also helps to ensure that payments are charged to the correct
appropriation and are the correct amount. Payments made from uncertified
vouchers should be reviewed for a potential loss of funds, for which the
disbursing officer could be pecuniarily liable.

       Payee Signature. Army finance personnel made cash payments on
15 vouchers totaling $5.1 million to vendors without documentation showing
payee signatures that the vendors actually received the cash. Three of the
15 vouchers were in excess of $500,000. These payments were to a U.S.


                                     6
company and two Iraqi companies for security services, trailers, and renovations.
The DoD FMR, volume 5, chapter 11 requires the payee to sign the payment
voucher upon receipt of cash. The payee’s signature provides substantive
evidence of receipt of the cash payment. Without the payee’s signature, a
disbursing officer may be unable to prove that proper payment was made and
could be required to make the payment again.

        Contract Number. Army finance personnel paid 31 vouchers that did not
cite a contract number on the supporting invoice. One paid voucher with a
missing contract number related to a $3.3 million payment to a Jordanian
company for bottled water. FAR 32.905 requires that payments be supported by a
proper invoice containing the correct contract number. The contract number links
other supporting documents in a voucher to the payment. Without the contract
number on the invoice, errors could occur when attempting to match the payment
with the correct contract or vendor.

        Voucher Retention. The Army and DFAS could not locate two vouchers.
One of the missing vouchers was for $303,716. The DoD FMR, volume 5,
chapter 11 requires all payments to be supported by a formal disbursement
voucher. The DoD FMR, volume 5, chapter 21 states that original disbursing
office records must be retained as Government property and remain accessible to
the disbursing officer or designated settlement office for a period of 6 years and
3 months. Missing original vouchers should be reviewed to determine whether a
loss of funds investigation is necessary.

Other Requirements. The following examples resulted from our review of
payment vouchers compared against the 26 criteria identified as necessary for
compliance with law and regulation. We did not consider these criteria to be
essential to support a proper payment because they did not substantively relate to
facts needed to determine entitlement.

       Method of Disbursement. For 19 vouchers, Army finance personnel did
not identify the method of disbursement. One of these was for an $8.1 million
payment for truck rentals. Disbursement method is required by the DoD FMR,
volume 5, chapter 11. Specifically, the voucher should identify whether the
method of disbursement was electronic funds transfer, U.S. Treasury check, or
cash. Without the method of disbursement on the voucher, the audit trail for the
payment becomes difficult to follow.

        Printed Name on Receiving Report. Army finance personnel did not
ensure that printed names of the approving officials were on receiving reports
supporting 118 vouchers. One voucher with a receiving report that did not have
the printed name of the approving official was for a $19 million payment to a U.S.
company for vehicle rentals. The FAR 32.905 requires a printed name. In
addition, many signatures on the receiving reports were illegible. In some cases,
we could not determine whether the mark on the receiving report was a signature.
If there are questions regarding the goods or services received, the printed name is
often the only way to identify the official who received or accepted the goods or
services.




                                     7
        Use of the SF-44. Army finance personnel submitted 18 vouchers in
which Standard Forms 44 (SF-44), “Purchase Order-Invoice-Voucher” were
inappropriately used. The FAR Part 13 allows for the use of the SF-44 for
on-the-spot, over-the-counter purchases with only one delivery and one payment.
These 18 vouchers were supported by SF-44s used on a recurring basis or to make
installment payments. In addition, Defense Federal Acquisition Regulation
Supplement Subpart 213.306, “SF-44, Purchase Order-Invoice-Voucher”
established that overseas transactions by contracting officers in support of a
contingency operation cannot exceed the simplified acquisition threshold for
using the SF-44. According to FAR Part 2, the simplified acquisition threshold
for purchases made outside the United States is $1 million. Because the guidance
was fragmented, we had to research several sections of the FAR and DFARS
regulations to determine which SF-44 purchase threshold applied to contingency
operations.

        In one instance, the Army incorrectly used an SF-44 to make a
$1.7 million installment payment on a contract for trucks. This payment did not
meet the one-delivery and one-payment criteria and exceeded the simplified
acquisition threshold for using the SF-44. The DoD FMR is required for use in
day-to-day financial operations, but its explanation of the SF-44 is incomplete.
Further, the DoD FMR refers only to FAR Part 13 for limitations and restrictions
on the SF-44.

        Contact Information on Receiving Report. For 394 vouchers, Army
finance personnel did not ensure that the approving official’s contact information
was included on the receiving report. One voucher with a receiving report that
did not have approving official contact information was for a $20.4 million
payment to a U.S. company for vehicle rentals. The FAR 32.905 requires that a
telephone number and mailing address for the approving official be included on
the receiving report. Without ready contact information, it is more difficult for
the certifying officer to contact the approving official to inquire about the receipt
of goods or services. If voucher payment is delayed because of this, discounts for
prompt payment could be lost.

       Payment Terms. For 343 vouchers, the invoices did not state vendor
payment terms. One voucher with an invoice missing the payment terms was for
an $8.2 million payment to a Kuwaiti company for food service. Payment terms
define potential discounts from the vendor for payments made within a prescribed
period. The FAR 32.905 requires that payment terms be included for a proper
invoice. Stating payment terms on the invoice ensures that the disbursing office
is aware of any potential discounts for early payment.

       Contact Information on Invoice. For 359 vouchers, Army finance
personnel did not require contact information on the vendor invoices. The
FAR 32.905 requires the name, title, and phone number of a contact person to be
on every invoice. In the event of a defective invoice, missing contact information
could cause unnecessary delays, resulting in lost discounts from vendors or
noncompliance with prompt payment requirements.

       Taxpayer Identification. The taxpayer identification number was
missing on 67 vouchers. Section 3325, title 31, U.S.C. and DoD FMR, volume 5,


                                      8
  chapter 11 require a taxpayer identification number on all certified vouchers
  submitted to a disbursing office for payment. Without the taxpayer identification
  number, the Internal Revenue Service is not notified when payment is made to a
  U.S. contractor. This could lead to the potential loss of tax revenue.

Commercial Payment Controls
  Operating in a combat environment created challenges for Army contingency
  disbursing stations in ensuring good internal controls over the commercial
  payment process. The working relationship between DFAS Rome and Army
  disbursing stations for contingency commercial payments was not clearly defined
  in a formal plan or in guidance. As a result, neither DFAS Rome nor the Army
  disbursing stations had clear accountability for making proper contingency
  commercial payments or sufficiently defining the responsibilities for payment
  voucher retention.

  In addition, the Army did not integrate its disbursing and accounting systems.
  This created problems in substantiating commercial payment transactions created
  at Army contingency disbursing stations. Currently, the contingency disbursing
  stations send daily text files of commercial payment data to DFAS Rome to
  populate the Standard Finance System, the Army-wide accounting system.

  Each week, the contingency disbursing stations mail all original vouchers and
  supporting documents to DFAS Rome. DFAS Rome confirms that each payment
  voucher has a related transaction in the Standard Finance System. DFAS Rome
  completes a limited review of each payment voucher for certain required
  documents and data elements. This assessment does not include all the necessary
  payment elements required to properly support a commercial payment.

  As a result, 125 of the 702 sample commercial payments did not have essential
  information needed to support a proper payment and 537 of the 702 sample
  commercial payments did not meet all the statutory and regulatory requirements.
  Four internal control deficiencies contributed to the Army’s lack of compliance
  and should be addressed:

     •   availability of supporting documentation,

     •   payment voucher quality,

     •   training of Army finance personnel, and

     •   clarification of accountability for the Army and DFAS in the commercial
         payment process.

  Management Actions. On May 16, 2008, the office of the USD(C)/CFO notified
  us that the FMR, Volume 10, Chapter 8, was revised to provide guidance on
  commercial payment vouchers and supporting documents in contingency
  operations. The revised guidance is posted to its website
  http://www.defenselink.mil/comptroller/fmr. Also, the Army and DFAS have
  implemented a number of process changes in response to the preliminary results


                                      9
           of this audit. These management actions should improve internal controls over
           commercial payments made by the Army contingency disbursing stations and
           reduce problems with payments in the future. The following sections discuss
           some of the Army and DFAS improvements.

           Availability of Supporting Documents. Not all the information needed to
           support the sampled commercial payments was readily available at DFAS Rome,
           although the DoD FMR requires payment support vouchers and documents to be
           sent to the assigned accounting office. We reviewed the vouchers against
           27 criteria developed from the statutory and regulatory requirements needed to
           minimally support a commercial payment. On May 3, 2007, we provided a
           memorandum to DFAS suggesting corrective actions and providing a list of major
           deficiencies identified in 152 commercial payment vouchers totaling
           $167 million. 3

           The Army and DFAS were able to locate the necessary documents to support
           27 of the 152 deficient commercial payments, totaling $30 million. Supporting
           documentation was found in Iraq and Kuwait and at DFAS sites. However,
           critical information was still missing on 125 payment vouchers totaling
           $137 million. We performed statistical analysis on our sample, which indicated
           that 34.2 percent of the universe of 183,486 commercial payments were not
           properly supported. Based on this, we estimate that the Army did not properly
           support 62,825 of the 183,486 commercial payments, for a total of $1.4 billion.
           (See Appendix B for the details of the statistical analysis.) The Army should
           further review the 125 commercial payments that were not properly supported
           and, if they cannot be supported, determine whether a loss-of-funds investigation
           or other action is required to ensure that the payment was not improper. Other
           actions could include: referring unsupported payments to either the Defense
           Criminal Investigative Service or the U.S. Army Criminal Investigation
           Command or performing recovery audits of the payments. 4

           The Army and DFAS recently addressed the documentation problem by
           purchasing 40 scanners to be distributed to the Army contingency disbursing
           stations in Iraq and Kuwait. These disbursing stations will scan each day’s
           disbursement documentation, and this input can be reviewed by DFAS Rome for
           document quality and completeness. Instead of shipping original disbursing
           documents to DFAS Rome each week, the Army will ship them only once per
           month. In light of this initiative by the Army and DFAS, we are not making any
           recommendations addressing the transfer and retention of disbursement voucher
           documentation.

           In addition, DFAS Rome improved the physical controls over commercial
           payment vouchers and supporting documents by implementing the following:


3
    DoD IG Memorandum, “Internal Payment Voucher Analysis Records from Audit of Internal Controls
    Over Out-of-Country Payments (Project No. D2006-D000FL-0208.000),” dated May 3, 2007.
4
    DoD 7000.14-R, “DoD Financial Management Regulation,” volume 10, chapter 22 defines a recovery
    audit as a post-payment review and analysis of the DoD Component’s books, supporting documents, and
    other available information supporting its payments. Recovery audits are specifically designed to identify
    overpayments to contractors that are due to payment errors.



                                                      10
   •   a single, dedicated storage area for all payment documentation,

   •   restricted access to the storage area, and

   •   strict procedures for checking out payment vouchers.

Completeness of Payment Documentation. Incomplete payment documentation
resulted in part from inadequate quality assurance and management oversight. To
correct these deficiencies, the Army and DFAS developed a checklist to use as a
voucher review guide and established additional performance measures. In
addition, the USD(C)/CFO has issued new guidance for certifying payments.

        Checklist. DFAS Rome personnel addressed the problem of inadequate
or missing payment support documents by developing internal procedures to
process incoming vouchers. DFAS Rome had established a nine-item checklist to
review some of the supporting documents and data elements required for a proper
commercial payment. The checklist had served as a limited quality assurance
review, and when a payment voucher needed to be corrected or lacked supporting
documentation, DFAS Rome contacted the appropriate contingency disbursing
station. However, the checklist lacked several statutory and regulatory
requirements.

In our May 3, 2007, memorandum, we provided two additional recommendations
to DFAS. We suggested that DFAS Rome should:

   •   expand its checklist to include the auditor-developed checklist of the
       27 criteria needed to minimally support a payment, as well as those
       criteria required by regulation for otherwise-supported payments, and

   •   report to the Army the type and extent of errors in payment vouchers
       submitted to DFAS Rome.

In response, DFAS Rome staff stated that they had given a checklist of the
27 criteria needed to minimally support a commercial payment to the Army
contingency disbursing stations for use in reviewing commercial payment
vouchers. The Army should require certifying officers at all Army finance offices
to complete a standard checklist of required commercial payment support
elements before a payment voucher is forwarded to its appropriate disbursing and
accounting office. This would ensure that all commercial payment vouchers are
complete before they are sent to the appropriate accounting offices.

        Performance Measures. The Army and DFAS Rome also added two
new management performance indicators to evaluate payment support documents
sent from Army contingency disbursing stations to DFAS Rome. These
performance indicators were intended to ensure that the Army could assess a
commercial payment voucher for completeness by evaluating the voucher’s data
elements against a new checklist developed by DFAS Rome. The indicators were
based on the list of data elements developed by the Army and DFAS Rome, using
the criteria needed to minimally support a commercial payment. However, the
DFAS Rome checklist does not include verifying important specific information
that should be included on certain payment support documents, such as specific


                                     11
information that is required to be present on a receiving report or an invoice. The
DFAS Rome checklist verifies only whether these documents are available and
not whether they have the necessary specific information. Despite this, if these
measures are fully and properly implemented, there should be a material
improvement in the quality of incoming payment voucher documents from Army
contingency disbursing stations. However, DFAS Rome will not have specific
information to assess whether commercial payments are proper. As a result,
Army contingency disbursing stations could still make payments that are not
properly supported.

        Under Secretary of Defense (Comptroller) Guidance. On
September 14, 2007, the USD(C)/CFO issued a memorandum addressing
“Certified Commercial Payments in Contingency Operations.” The purpose of
the memorandum was to remind DoD components of the legal requirements for
payment voucher certification and to provide guidelines for payments made in
contingency operation areas. The 27 criteria that we identified as minimum
essential information needed to support a proper payment complement this policy
memorandum. The policy memorandum was in effect for 180 days. On
May 16, 2008, the office of the USD(C)/CFO notified us that it had incorporated
the memorandum guidance into the DoD FMR.

Training Army Disbursing Personnel. The Army had not provided adequate
training on regulatory requirements for commercial payment support to Army
finance personnel being deployed to contingency disbursing stations in Iraq and
Kuwait. The Army does not currently offer any formal and up-to-date training in
disbursing operations. In addition, the Soldier Support Institute stated that
officers and enlisted personnel in finance do not currently receive a complete
disbursing operations training course.

We interviewed 14 Army finance personnel in Iraq during May 2007. Half of
them felt that they had not received sufficient disbursing and accounting training
before their deployment. Some soldiers said that they had relied heavily upon
their experience from previous deployments in Iraq because their training was not
adequate. Active, Reserve, and National Guard finance soldiers deployed to
Army contingency disbursing stations require sufficient training to perform their
duties properly. Inadequate training has contributed to material errors in the
preparation of documents supporting vendor and contractor payments.

To improve soldier preparation, the Soldier Support Institute is developing an on-
line, computer-based disbursing operations course scheduled for deployment in
mid calendar year 2008. This course will include lessons learned from soldiers
with disbursing and finance experience in Iraq and Kuwait. In addition, DFAS
Rome is taking a proactive role in training finance soldiers being deployed to Iraq
and Kuwait. This training is held at DFAS Rome and Fort McCoy, Wisconsin.

These actions represent progress in properly training finance personnel prior to
deployment to Iraq and Kuwait. However, the Army could further improve its
training by integrating the Army and DFAS training programs for finance
personnel. In addition, the Army should ensure that finance soldiers from the
Active, Reserve, and National Guard components all receive the same training
prior to deployment to Iraq or Kuwait.


                                    12
Clear Accountability in the Payments Process. Responsibilities for controls
and accountability for commercial payments made at Army contingency
disbursing stations are not adequately defined. DFAS Rome has documented its
procedures for processing electronic transaction data and original payment
support documentation received from Army contingency disbursing stations in
Iraq and Kuwait. However, Army and DFAS roles and responsibilities related to
controls and accountability for the contingency commercial payment process have
not been formalized.

To improve commercial payment processing and related controls, the Army and
DFAS agreed that DFAS Rome would become responsible for certifying and
making non-cash commercial payments previously made in Kuwait. This transfer
of responsibility was completed in September 2007. To support this task, DFAS
deployed vendor pay and military pay subject matter experts to Iraq and Kuwait.

The contingency disbursing stations in Kuwait will continue to validate the
contract, invoice, and receiving report documents for each payment, but they will
send these documents to DFAS Rome using the Electronic Data Management
system. DFAS Rome will calculate and certify each payment and create a
disbursement file to be sent to the Disbursing Operations Directorate at DFAS
Indianapolis Operations for payment.

To ensure clear accountability for each organization, the Army and DFAS should
use a memorandum of agreement to define the specific roles and responsibilities
of each organization in this new commercial payment process. This memorandum
of agreement should also document any other Army and DFAS informal
agreements on roles and responsibilities related to new commercial payment
processes discussed or recommended in this report. Specifically, the
memorandum of agreement should document Army and DFAS roles and
responsibilities for the following actions related to commercial payment
vouchers:

    •   submission and retention,

    •   scanning,

    •   pre-submission and post-submission reviews,

    •   follow-up on incomplete vouchers,

    •   use of management performance indicators,

    •   training, and

    •   establishing a process for identifying payments that may be candidates for
        a loss-of-funds investigation or a recovery audit.

These process changes will improve future oversight and accountability for
commercial payments. Establishing a process to identify questionable or
improper payments will help ensure that loss-of-funds investigations and recovery
audits are performed to recover funds.


                                    13
Importance of Internal Controls
     Internal control systems provide reasonable assurance that programs are operating
     as intended and are achieving expected outcomes. Internal controls should also
     ensure that there is sufficient evidence that goods and services were properly
     procured and received. The Army’s weak internal controls over commercial
     payments in Iraq and Kuwait did not permit reasonable assurance that Army
     contingency disbursing stations properly authorized commercial payments and
     maintained the supporting documentation. In addition, the lack of internal
     controls resulted in either no audit trail or in a complex audit trail, which hindered
     the search for supporting documents. Effective internal controls serve to
     safeguard assets and help to prevent and detect errors and fraud. Ineffective
     internal controls can result in missing or inadequate commercial payment
     documentation. In addition, ineffective internal controls can result in inadequate
     audit trails and unreliable accounts payable and expense amounts reported on
     Army and DoD financial statements. Ineffective internal controls could create an
     environment conducive to fraudulent activity or improper use of funds. We
     referred 28 vouchers totaling $35.1 million to the Defense Criminal Investigative
     Service (DCIS) for potential follow-up because of their support deficiencies the
     unusual nature of the transaction; or because they pertained to payees of interest
     to DCIS.

     As a result of internal control deficiencies over commercial payments, we were
     unable to determine whether all of the payments reviewed were disbursed as
     intended. The USD(C)/CFO and DFAS need to be directly involved in
     supporting military finance operations to ensure DoD funds are used properly in
     support of our troops in the Global War on Terror.

Annual Assurance Statement
     The FY 2007 Army Annual Statement of Assurance did not identify the lack of
     commercial payment documentation as a material internal control weakness.
     Because of the magnitude of the commercial payment documentation deficiencies
     and the related vulnerability to fraud, waste, and abuse, the Army should address
     the identified internal control deficiencies in its Annual Statement of Assurance
     as material weaknesses.

Management Comments on the Finding and Audit Response
     Under Secretary of Defense (Comptroller)/Chief Financial Officer
     Comments. The USD(C)/CFO provided additional comments on the report on
     May 15, 2008. She stated that:




                                          14
       The auditors correctly report that the Department did not provide comprehensive
       guidance for preparing and retaining payment documentation during contingency
       operations, a shortcoming we have since remedied. The audit identified areas where
       management controls needed improvement, but did not acknowledge the improvements
       made to address these areas. For instance, we changed documentation policies to require
       the retention of contracts, invoices, receiving reports, and payment vouchers with the
       accounting office (Rome, New York) to enhance the audit trail for contingency operation
       payments. We implemented a monthly balanced scorecard review to ensure compliance
       with this revised policy. Another significant control is complete fielding of the
       Deployable Disbursing System to all in-theater payment activities. Finally, many
       payments previously entitled and paid in theater are now processed by the Rome, New
       York DFAS site.

       In addition, the DFAS is implementing a phased strategy to transfer all electronic fund
       transfer (EFT) payments from Iraq and Afghanistan to DFAS Rome, NY. Currently,
       DFAS Rome makes EFT payments that exceed $250,000 and by October 2008, will
       make all EFT payments for Iraq and Afghanistan. Finally, the DFAS is implementing a
       document imaging process in theater to ensure all payment documentation is transmitted
       to DFAS Rome for retention. The DFAS has also provided training in disbursing,
       vendor pay and accounting operations for deployed and deploying units. A forward
       deployed cell of DFAS personnel was established in-theater to relieve warfighters of the
       administrative functions associated with documentation processing and to provide other
       assistance, as needed.

Audit Response. We had previously recognized most of the DoD actions in the
finding; however, we incorporated the USD(C)/CFO additional comments above
to ensure that management actions are adequately disclosed. In addition, we are
currently performing an audit of the Deployable Disbursing System to determine
if the internal controls are adequate and the data processed is reliable.

Deputy Chief Financial Officer Comments. The Deputy Chief Financial
Officer provided comments to the finding. The Deputy did not agree with the
methodology used to estimate the projected dollar amount of payments lacking
information or supporting documentation. The Deputy added the estimated dollar
amounts do not distinguish between “critical” and “noncritical” errors.

Audit Response. We projected the results of the sample using a stratified
sampling design that yielded unbiased, but conservative estimates. Appendix B
provides details regarding our sampling plan and results. We added clarifying
language to better distinguish between essential information needed to support a
proper payment and other information that was not essential to determining
entitlement. We estimated that the Army made $1.4 billion in commercial
payments that lacked the minimum documentation and information for payment.
Another estimated $6.3 billion in commercial payments did not comply with other
statutory and regulatory requirements, but did contain supporting information
essential to support a proper payment

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) provided comments to the finding. The Deputy Assistant Secretary
stated that the report was inconsistent with DoD policy that the report cited the
lack of compliance with the PPA while indicating the PPA does not apply. The


                                         15
Deputy Assistant Secretary stated, “It is recognized that there were administrative
errors, the audit trail is difficult to follow, and a small percentage of vouchers
require follow-up due to critical deficiencies such as a missing payee signature.”
Further, the Deputy Assistant Secretary stated, “If the auditors had been able to
travel to the theater to follow the appropriate audit trails or to Fort McCoy to
observe the training being given to deploying units, the audit report would be
more informative and identify specific areas of concern.”

Audit Response. The DFAS accounting policy office disclosed the inconsistency
between DoD policy and the PPA on November 29, 2007. We have made
recommendations to USD/AT&L and USD(C)/CFO to resolve the inconsistency
and the applicability of PPA to military contingency operations.

Resolving an inconsistency and the applicability of PPA to military contingency
operations does not preclude ensuring that essential information is obtained to
support a proper payment. Additionally, we do not believe the lack of adequate
documentation and information supporting commercial payments is an
administrative error. A minimum level of information, such as an invoice and a
receiving report, is essential to determine whether an entitlement exists for a
payment. As discussed in the finding, the Army disbursements of an estimated
$1.4 billion lacked essential information supporting proper payment.

We agree with the Deputy Assistant Secretary’s comments that indicate the
difficulty of an audit trail in a military contingency operation. However, our
concern is more than an adequate audit trail. Rather, we are concerned that there
are significant gaps in internal controls over commercial payments made in a
military contingency operation. Those gaps in internal controls could create
situations where we are more vulnerable to fraud, waste, and abuse. Certifying
officials should have sufficient information to determine whether an entitlement is
proper for payment. For example, signatures from certifying officials, receiving
officials, and payees are essential internal controls to authenticate entitlement and
approval of contractor and vendor invoices for payment. In addition,
documentation needed to support many of the sampled commercial payments was
not readily available at the assigned accounting office as required by DoD FMR,
volume 10, chapter 8. DoD IG auditors deployed to Iraq attempted to locate
missing voucher documentation but were generally unsuccessful. In addition, the
Assistant Inspector General, Defense Financial Auditing Service, granted the
Army and DFAS an additional 90 days to locate missing documentation for
152 payment vouchers after we had completed our initial audit work. As
discussed in the finding, the Army and DFAS did not locate the missing
documentation and information for 125 of 152 payment vouchers.

We held discussions with responsible Army personnel at the Soldier Support
Institute, Fort McCoy, and the Army Finance Command and obtained the
curricula and other information on financial training. Based on documentation
obtained and discussions held, we determined that the training program needed
improvement. As discussed in the finding, we also discussed training with Army
finance personnel actually deployed in Iraq. As a result of this audit, the
USD(C)/CFO, the Army, and DFAS have taken several actions to improve
internal controls over making commercial payments and the training of finance
personnel.


                                     16
Additional Management Comments. On May 13, 2008, we met with
representatives from USD (C)/CFO, Army, and DFAS to discuss this report.
During this meeting, the Deputy Comptroller asked us to consider additional
verbal comments regarding the results of our audit work. The Principal Deputy
Under Secretary of Defense (Comptroller) stated that the Army and DFAS
disagreed with our conclusion that 125 commercial payments were not properly
supported and with our statistical projection that a total of $1.4 billion in
commercial payments lacked minimum supporting documentation. He stated that
the Army had done a review of these 125 disbursements and, based on additional
information that they obtained, they concluded that these were all valid payments
and 123 of these disbursements had the appropriate supporting documents.

The Army provided a memorandum dated May 15, 2008, that reconfirmed their
position made at the May 13, 2008, meeting. The Army stated that:

       As directed by your recommendation, we expanded the review of the 125 payments to
       include documentation maintained by theater contract, entitlement, and payment
       activities to determine if the payments were properly supported. Our review applied the
       legal certification criteria and supporting information requirements identified in the
       Comptroller’s memorandum of September 14, 2007. That memorandum set forth the
       Department’s legal requirement for commercial payment certification in contingency
       operations.
       We matched payment, invoice, and receiving report for 96 percent of the 702 payments,
       and conclude that twelve payment invoices could constitute loss of funds. We were able
       to validate ten of these payments, and continue to research the remaining two payments
       made by a disbursing station that closed in December 2004.

       Based on these findings, the audit’s conclusion that “the Army made an estimated
       $1.4 billion in commercial payments that lacked minimum supporting documentation”
       should be modified. Our expanded review of in-theater documentation indicates all
       payments were properly documented. The audit’s estimates should be adjusted
       accordingly.

Audit Response. During the May 13, 2008, meeting, the Army and DFAS
representatives did not provide additional supporting documentation to us and
therefore, we could not validate their assertion that these payments were valid or
supported by appropriate documentation. In addition, we are unsure what criteria
were used to determine whether these disbursements were valid and properly
supported. In addition, the Army and DFAS representatives did not explain how
additional documentation was obtained when the auditors found that some
payments had documents, like a receiving report or invoice, but lacked essential
information such as the identification of goods or services received or a proper
approval.

The Army and DFAS were provided many opportunities to produce the missing
payment information. On May 3, 2007, we provided the Army and DFAS a list of
vouchers in our audit sample. On May 21, 2007, we provided the Army an
additional 90 days to find the missing documentation for the 152 vouchers
considered to be unsupportable payments. On July 23, 2007, we met with DFAS
personnel to review additional supporting documentation found by DFAS and the
Army. Because of this meeting, we reduced the number of unsupported vouchers


                                        17
    to 125. On November 16, 2007, and January 15, 2008, we issued discussion draft
    reports. In addition, neither DFAS nor Army stated that they found additional
    documentation in their comments provided to the draft report of
    February 11, 2008.

    Because the Army has not provided the information required to validate their
    assertion, we did not modify the report. The Army certifying officials approved
    702 payments based on the documentation attached to the vouchers at the time of
    the payment rather than the assertions the Army made in its May 15, 2008,
    memorandum. In addition, much of the required information was not recorded on
    the invoices and receiving reports. Section 3325, title 31, U.S.C. require that the
    certifying officials are responsible for the information on the voucher and
    supporting records.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer coordinate with the Office of
    Management and Budget to resolve conflicting guidance in 5 Code of Federal
    Regulations Part 1315 (2001) regarding the documentation requirements for
    disbursements made in military contingency operations.

    Management Comments. The Director, Defense Procurement, Acquisition
    Policy, and Strategic Sourcing and the Deputy Chief Financial Officer concurred
    and stated that they are engaged with OMB in resolving the issue. The Deputy is
    waiting for OMB to provide an expected response date.

    Audit Response. The Director, Defense Procurement, Acquisition Policy, and
    Strategic Sourcing and the Deputy Chief Financial Officer comments are
    responsive to the recommendation.

    A.2. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer update the DoD 7000.14-R, “DoD
    Financial Management Regulation” with the following changes:

           a. Consolidated guidance that identifies the Federal Acquisition
    Regulation and DoD 7000.14-R, DoD Financial Management Regulation
    requirements to support commercial payments and address the deficiencies
    that are listed in Appendix E.

    Management Comments. The Deputy Chief Financial Officer partially
    concurred and stated that they will update the DoD FMR to clarify financial
    management policy, as necessary, contingent upon the resolution of the
    applicability of the PPA to contingency operations. The Deputy is waiting for
    OMB to provide an expected response date.

    Audit Response. The recommendation addressed the consolidation of
    commercial payment support requirements within the DoD FMR because it


                                        18
provides requirements for use in day-to-day financial operations, and commercial
payment support requirements should be readily accessible to finance personnel.
Consolidated guidance would help users more readily identify essential
information needed to support proper payments. The recommendation further
addressed the criteria needed to support a payment, as shown in Appendix E.
Resolving the applicability of the PPA to contingency operations does not
preclude incorporating the September 14, 2007, USD(C)/CFO policy
memorandum, “Certified Commercial Payments in Contingency Operations,” into
the DoD FMR. On May 16, 2008, the office of the USD(C)/CFO notified us that
it had incorporated the policy memorandum into the DoD FMR. We request that
the Deputy provide additional comments to the final report on the consolidation
of commercial payment support requirements.

       b. Clearly identify the appropriate uses and payment thresholds for
the SF-44, as addressed in the Federal Acquisition Regulation and the
Defense Federal Acquisition Regulation Supplement.

Management Comments. The Deputy Chief Financial Officer partially
concurred and suggested that the recommendations be redirected to USD/AT&L,
saying that identifying the appropriate uses and payment thresholds for the SF-44
are under the purview of the USD/AT&L. He agreed to update the DoD FMR, as
necessary, to reflect any SF-44 policy changes by USD/AT&L.

Audit Response. The DoD FMR is incomplete in its definition of the appropriate
use or payment thresholds of the SF-44, and the guidance is scattered throughout
the FAR and DFARS. Therefore, the USD(C)/CFO should update the DoD FMR
on its definition of the appropriate use and payment thresholds of the SF-44 and
ensure consistency with the FAR and DFARS. We request that the Deputy
reconsider his position and provide comments to the final report.

A.3. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller):

        a. Review the 125 commercial payments that were not properly
supported and, if the errors cannot be resolved, determine whether a loss of
funds investigation or other investigative action, such as a payment recovery
audit, is required to ensure that the payment was not improper.

Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) partially concurred and stated that the Army has initiated
review of commercial payments that were not properly supported. The Army will
initiate a formal loss of funds investigation if a reasonable assurance of payment
cannot be ascertained.

Audit Response. The Deputy Assistant Secretary of the Army (Financial
Operations) did not specify whether he would review the 125 commercial
payments that we determined were not properly supported. We request that the
Deputy Assistant Secretary provide additional comments to the report to clarify
his response to our recommendation.




                                    19
       b. Require that certifying officers at all Army finance offices complete
a standard checklist of required commercial payment support elements
developed from the Federal Acquisition Regulation and the DoD 7000.14-R,
DoD Financial Management Regulation, before a payment voucher is
forwarded to its appropriate disbursing and accounting office.

Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) partially concurred with the recommendation. The Deputy
Assistant Secretary stated that the Army will revise the current checklist as
necessary to address PPA and employer identification number requirements. He
added that the Army would direct deployed Army finance offices to use the
checklist.

Audit Response. The Deputy Assistant Secretary of the Army (Financial
Operations) comments did not address whether he would use the FAR or the
DoD 7000.14-R to derive a standard checklist. We request that the Deputy
Assistant Secretary provide additional comments to the final report.

       c. Develop an integrated training approach providing adequate and
timely training in disbursing, vendor pay, and accounting operations to
finance personnel deployed to contingency disbursing stations.

Management Comments. The Assistant Secretary of the Army (Financial
Operations) partially concurred and stated that the Army has an integrated
disbursing and vendor pay training program for units deploying to theater, and it
is under continual review and improvement.

Audit Response. The Army response does not indicate specific actions taken to
improve its integrated and vendor pay training program for units deployed to
theater. We request that the Deputy Assistant Secretary provide additional
comments describing actions taken to improve its integrated and vendor pay
training program for units deployed to theater.

      d. Address the internal control deficiencies identified in this report in
the Army Annual Statement of Assurance as material weaknesses.

Management Comments. The Assistant Secretary of the Army (Financial
Operations) partially concurred and stated that complex audit trails related to
vendor payments made in a contingency theater of operations will be identified as
a material weakness in the Army’s next Annual Statement of Assurance.

Audit Response. The Army should update its Annual Statement of Assurance to
identify the following internal control deficiencies as material weaknesses related
to military contingency operations: availability of supporting documentation,
payment voucher quality, training of Army finance personnel, and clarification of
Army and DFAS responsibilities in the commercial payment process. We request
that the Deputy provide additional comments to the final report that address the
specific internal control weaknesses identified above.




                                    20
A.4. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) and the Director, Defense Finance and
Accounting Service establish a formal agreement that clarifies each
organization’s distinct responsibilities to ensure proper accountability for
commercial payment vouchers.

Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) and the Deputy Director, DFAS Standards and
Compliance concurred with the recommendation. The Deputy Assistant
Secretary stated that the Army would work with DFAS to update the existing
standard operating procedures and formalize it in a memorandum of agreement.
The Deputy Director stated that memoranda of agreement were executed for
DFAS Rome becoming responsible for certifying and making non-cash
commercial payments previously made by Kuwait, Qatar, and U.S. Army Central
Command Support Teams. The Deputy Director also stated that DFAS will
continue working with the Army to establish agreements clarifying each
organization’s responsibilities.

Audit Response. The Deputy Assistant Secretary of the Army (Financial
Operations) and Deputy Director, DFAS Standards and Compliance, actions are
responsive to the recommendation.




                                   21
           B. Contingency Operations and the
              Prompt Payment Act
    The DoD 7000.14-R, DoD Financial Management Regulation and Defense
    Federal Acquisition Regulation Supplement did not contain guidance addressing
    procedures to be used in a military contingency environment. The Office of
    Management and Budget allowed the DoD discretion in establishing the scope of
    contingency operations in 5 Code of Federal Regulations 1315 when applying the
    Prompt Payment Act. However, DoD has not established procedures addressing
    contingency operations. In addition, DoD needs to obtain clarification on the
    intent of the Office of Management and Budget regulation. As a result, DoD
    personnel relied upon the requirements of the DoD 7000.14-R, DoD Financial
    Management Regulation and Defense Federal Acquisition Regulation
    Supplement for making and processing commercial payments in Iraq and Kuwait.

Prompt Payment Act Exception
    The OMB has implemented the PPA, as stated in 5 Code of Federal Regulations
    (C.F.R.) Part 1315 (2001). 5 C.F.R. Part 1315, section 1315.1 states that vendor
    payments related to military contingency operations are exempt from the PPA.
    According to the DoD Office of General Counsel, DoD had discretionary
    authority to implement PPA in a contingency operation. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD[AT&L]) and the
    USD(C)/CFO did not promulgate guidance implementing the PPA exception.
    Before DoD can develop guidance, it must obtain clarification from OMB on
    defining contingency operations and when the C.F.R. provision applies to making
    payments.

    DoD Guidance. The USD(AT&L) and the USD(C)/CFO are responsible for
    implementing policies in the FAR, DFARS, or DoD FMR that are consistent with,
    and meet the intent of, statutory and regulatory requirements that are applicable to
    DoD. The FAR, DFARS, and DoD policy do not address contingent operations.

           The Federal Acquisition Regulation and the Defense Federal
    Acquisition Regulation Supplement. The USD(AT&L), through the office of
    Defense Procurement and Acquisition Policy, is responsible for all acquisition
    and procurement policy matters in the DoD. The Defense Procurement and
    Acquisition Policy office serves as an adviser to the USD(AT&L) on acquisition
    and procurement strategies for DoD acquisitions and assists in maintaining the
    FAR and the DFARS. Neither the FAR nor the DFARS provides policy on
    proper contracting requirements specific to military contingency operations.
    Because of the absence of an established policy, the contracts we reviewed
    continued to include and execute PPA provisions.

            DoD 7000.14-R, DoD Financial Management Regulation. The
    USD(C)/CFO provides all DoD components with the policies, regulations, and
    procedures for DoD financial management regulation through the DoD FMR. It
    governs financial management by establishing and enforcing requirements,
    principles, standards, systems, procedures, and practices necessary to comply


                                        22
    with statutory and regulatory requirements applicable to DoD. Compliance with
    the DoD FMR is mandatory for all DoD Components, and all revisions to the
    regulation are the responsibility of the USD(C)/CFO. The DoD FMR does not
    address the PPA exception for military contingency operations. In the absence of
    policy addressing military contingency operations, the Army utilized existing
    DoD FMR provisions to pay vendors and contractors.

    DoD should develop policy on contingent operations and coordinate the policy
    with OMB. The DoD policy on contingency operations should include:

        •   a definition of when contingency operations will activate the exception
            from the PPA,

        •   identification of the geographic region or contracts to which the
            exception would apply, and

        •   procedures to be used as an alternative to the PPA that would describe the
            contract clauses required to ensure that commercial payments are made
            appropriately.

    Code of Federal Regulations. DoD needs to coordinate with the OMB to obtain
    clarification of the intent of the PPA exception for military contingency
    operations and to clarify ambiguities in 5 C.F.R. Part 1315 (2001). The C.F.R.
    was unclear regarding the scope of a contingency military operation as it related
    to application of the PPA. One USD(AT&L) official stated that contingency
    operations end 30 days after deployment. 5 C.F.R. Part 1315, which implements
    the PPA, has conflicting guidance related to payments made in military
    contingency operations. 5 C.F.R. Part 1315, section 1315.5 states that for
    emergency payments, including payments made under a military contingency,
    “Vendors shall be entitled to interest penalties if invoice payments are made after
    the payment due date.” However, Section 1315.5 conflicted with 5 C.F.R.
    Part 1315, section 1315.1. The Army disbursing stations had to rely upon the
    DFARS and DoD FMR guidance in processing contract and vendor payments in
    Iraq and Kuwait. In our sample of 702 commercial payment vouchers, the Army
    made 46 payments with interest penalties of $275,887.

Management Actions
    As a result of the draft report, USD (AT&L) requested an opinion from the DoD
    Office of General Counsel. The General Counsel issued a legal opinion on
    March 4, 2008, recognizing the “obvious incongruity” within 5 C.F.R.
    Part 1315 (2001). The General Counsel also stated that:

            In the face of this regulatory inconsistency, the Department has sufficient legal authority
            to pay interest penalties pending resolution of the regulatory problem.…it is not improper
            for the Department to avail itself of the benefits of the Act (early payment discounts), nor
            to accept the burden of the Act (paying interest on late payments.)”

    As a result of this legal opinion, we revised this finding. We have removed the
    statements that the Army inappropriately applied the PPA to commercial


                                               23
    payments made for military contingency operations that resulted in potential
    improper payments. We also clarified our position on the need for DoD to
    develop a policy that addresses the 5 Code of Federal Regulations 1315
    exemption.

Recommendations, Management Comments, and Audit
  Response
    Revised, Deleted, and Renumbered Recommendations. We have revised
    Recommendation B.1.a. and deleted Recommendation B.1.b. addressed to the
    USD/AT&L and the USD(C)/CFO. We revised Recommendation B.1.a. to
    remove the wording to discontinue making interest payments. We also deleted
    Recommendation B.1.b. to take appropriate actions to resolve whether previous
    interest payments taken under the PPA for military contingency operations were
    justified or whether other actions are required to resolve the payments made. We
    revised and deleted these recommendations because the DoD Office of General
    Counsel issued a legal opinion on March 4, 2008 that stated the Department has
    sufficient legal authority to pay interest penalties. Recommendation B.1.a. was
    renumbered to B.1.

    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer coordinate to obtain legal advice to
    determine the impact of contract clauses that require making interest
    payments for existing contracts in military contingency operations.

    Management Comments. The Director, Defense Procurement, Acquisition
    Policy, and Strategic Sourcing and the Deputy Chief Financial Officer concurred
    with the recommendation. They stated that the Department’s Office of General
    Counsel concluded that the Department has legal authority to pay interest
    penalties and retain early payment discounts. The Deputy added that as a result,
    the Department will continue to pay the interest payments and take discounts in
    accordance with the terms and conditions of the existing contracts. However, the
    Deputy is engaged with both OMB and USD/AT&L in resolving the
    inconsistency in OMB’s regulation regarding the applicability of the PPA to
    contingency operations.

    Audit Response. The Director, Defense Procurement, Acquisition Policy, and
    Strategic Sourcing and the Deputy Chief Financial Officer comments are
    responsive.

    B.2. We recommend that the Under Secretary of Defense for Acquisition,
    Technology and Logistics update the Federal Acquisition Regulation and the
    Defense Federal Acquisition Regulation Supplement to provide guidance that
    addresses the Office of Management and Budget’s exception to the Prompt
    Payment Act for payments related to military contingency operations. The
    guidance should specify the processes and contract clauses to be used in cases
    where exceptions to the Prompt Payment Act apply.




                                       24
Management Comments. The Director, Defense Procurement, Acquisition
Policy, and Strategic Sourcing concurred with the recommendation and stated that
they will update the Federal Acquisition Regulation and the Defense Federal
Acquisition Regulation Supplement to be consistent with OMB after it resolves
the inconsistencies in its own regulations.

Audit Response. The Director’s comments are responsive.

B.3. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer update the DoD 7000.14-R, “DoD
Financial Management Regulation,” to provide guidance that addresses the
Office of Management and Budget’s exception to the Prompt Payment Act
for payments related to military contingency operations. The guidance
should specify the processes to be used in cases where exceptions to the
Prompt Payment Act apply.

Management Comments. The Deputy Chief Financial Officer partially
concurred with the recommendation and stated that they are engaged with
USD/AT&L and OMB in addressing the inconsistencies in the regulation with
respect to the applicability of the PPA to contingency operations. The Deputy
added that they will update the DoD FMR as necessary to clarify any related
financial management policy with respect to contingency operations.

Audit Response. The Deputy Chief Financial Officer comments are responsive.




                                   25
           C. Payments to Foreign Governments
           DoD did not ensure that $1.8 billion of seized and vested assets payments
           made to Iraqi representatives were adequately accounted for and auditable,
           as prescribed by Executive Order 13290. In addition, DoD did not
           maintain a complete audit trail for $134.8 million in Commander’s
           Emergency Response Program (CERP) payments made to representatives
           of foreign governments. DoD did not have policies in place to ensure that:

               •   finance personnel obtained and maintained documentation
                   supporting the justification and use of seized and vested asset
                   payments; and

               •   finance personnel properly supported and reconciled the payment
                   of CERP funds to Coalition Partners.

           As a result, DoD was unable to provide reasonable assurance that the
           seized and vested asset funds were accounted for as prescribed and that
           CERP funds provided to Coalition Partners were used for the purposes
           intended.

Background
    Seized and Vested Assets Payments. When Iraq invaded Kuwait in
    August 1990, the U.S. froze Iraqi assets held in U.S. banks. On March 20, 2003,
    the President issued Executive Order 13290, which vested the Iraqi assets in a
    U.S. Treasury Special Purpose Account established at the Federal Reserve Bank
    of New York. This U.S. Treasury Special Purpose Account, or vested assets
    fund, totaled approximately $1.9 billion.

    Seized assets are former Iraqi regime monies confiscated by coalition forces
    during the invasion of Iraq. Coalition military forces seized $926.8 million in
    funds from the former Iraqi regime. A Presidential memorandum dated
    April 30, 2003, provided DoD the authority to use seized and vested assets to
    assist the Iraqi people and support the reconstruction of Iraq. The memorandum
    also directed the DoD to prescribe procedures to ensure that all seized and vested
    Iraqi assets would be properly accounted for, audited, and used to assist the Iraqi
    people. DoD prescribed procedures in the USD(C)/CFO memorandum,
    “Appendices for Procedures Applicable to Vested and Seized Iraqi Property,”
    dated July 31, 2003.

    A Deputy Secretary of Defense memorandum dated May 29, 2003, gave control
    of these funds to the Coalition Provisional Authority (CPA). One of the priorities
    facing the CPA was to restart the Iraqi economy by paying Iraqi civil servants.
    To accomplish this, the CPA provided the Iraqi ministries with funds through an
    Iraqi representative. The CPA provided these funds from the seized and vested
    asset accounts. The Iraqi representative would sign for the cash provided and was
    responsible for distributing the funds to individual civil servants.




                                         26
    Coalition Partner Payments. Public Law 108-375, “The Ronald W. Reagan
    National Defense Authorization Act for FY 2005,” October 28, 2004, authorized
    DoD military commanders in Iraq to use CERP funds to immediately respond to
    urgent humanitarian relief and reconstruction requirements within their areas of
    responsibility by carrying out programs to assist the Iraqi people. DoD prescribed
    guidance for the use of CERP funds in the USD(C)/CFO memorandum,
    “Commander’s Emergency Response Program (CERP) Guidance,” dated July 27,
    2005. This guidance allowed CERP funds to be used to assist the Iraqi people in
    several areas:

           •   for repairs and condolence payments after combat operations;

           •   for protective measures (such as fencing, barrier materials, and guard
               towers) to enhance durability and survivability of critical infrastructure
               sites; and

           •   to initiate and execute a variety of projects in their areas of
               responsibility, including construction projects.

    Both U.S. Forces and Coalition Partners perform CERP-funded projects. The
    Coalition Partners comprise three of the six major subordinate commands
    headquartered throughout Iraq. As of FY 2006, the individual major subordinate
    commands consisted of:

           •   Multi-National Division-Baghdad – U.S. Army;

           •   Multi-National Division-Center South – Poland;

           •   Multi-National Division-North – U.S. Army;

           •   Multi-National Division-Northeast – South Korea;

           •   Multi-National Division-Southeast – United Kingdom; and

           •   Multi-National Force-West – U.S. Marine Corps.

Payment Vouchers Review
    DoD did not ensure that $1.8 billion of seized and vested assets payments made to
    Iraqi representatives were adequately accounted for and auditable, as prescribed
    by Executive Order 13290. In addition, DoD did not maintain a complete audit
    trail for $134.8 million in CERP payments made to representatives of foreign
    governments. The 75 vouchers in our sample were for payments to Iraqi
    ministries and Coalition Partners, as shown in Table 3. The vouchers for seized
    and vested assets payments did not have sufficient supporting documentation and
    audit trails to verify that funds were accounted for as prescribed by Executive
    Order 13290. The vouchers for CERP payments made to Coalition Partners did
    not have sufficient supporting documentation and audit trails to verify that funds
    were used for the purposes intended. Audit trails are necessary to demonstrate the
    accuracy, completeness, and support of payments. As a result, DoD was unable


                                         27
     to provide reasonable assurance that the seized and vested asset funds, and CERP
     funds provided to Coalition Partners were used to assist the Iraqi people.

                    Table 3. Payments to Foreign Governments

                                               Number of     Amount
                Payment type                   Vouchers    (in millions)

                Seized and Vested Assets          53       $    1,825.8

                Coalition Partners                22       $      134.8

                  Totals                          75       $    1,960.6



Seized and Vested Assets
     Fifty-three payment vouchers, totaling $1,825.8 million, were for seized and
     vested asset payments to the Iraqi ministries for Iraqi civil servant salaries and
     ministry operations. However, DoD did not maintain sufficient documentation
     supporting the justification and use of seized and vested asset payments to Iraqi
     ministries, nor did it provide adequate guidance to the Iraqi ministries regarding
     accounting and documentation requirements.

     Supporting Documentation. The payment vouchers contained the certifying
     officer’s appointment letter, a “Purchase Request and Commitment” form, and a
     brief description of the purpose of the payment, stating whether it was for Iraqi
     civil servant salaries; pensions; ministry operations; or repair and reconstruction.
     However, this documentation was inadequate because it did not provide the audit
     trail needed to validate who actually received the funds or how the funds were to
     be used. Information omitted from the voucher included the name of the Iraqi
     ministry to whom the funds were to be provided and a specific accounting of how
     the funds were to be used (such as the number of Iraqi civil servants to be paid).

     For example, our sample included a $320 million cash payment to an Iraqi
     representative for Iraqi salary payments. The only supporting documentation in
     the payment voucher were two “Purchase Request and Commitment” forms to
     obligate the funds and another document that indicated the amount of funds being
     requested. These documents did not account for how the funds were used for
     salaries or the benefit of the Iraqi people. The name of the Iraqi ministry to whom
     the funds were to be provided and the number of Iraqi civil servants to be paid
     were omitted from the voucher. This information could have been provided by
     attaching a spending plan or budget.

     We were unable to obtain the spending plans or reconcile vouchers with CPA
     budgetary information. The payment vouchers we reviewed in our sample did not
     have spending plans attached, and we were unable to obtain them from the Office
     of the Under Secretary of Defense (Comptroller) or the Army Headquarters


                                          28
           Budget Office. In addition, the CPA budgetary information did not provide
           enough detail for an audit trail. The Special Inspector General for Iraq
           Reconstruction (SIGIR) reported that the “CPA did not maintain adequate
           documentation to support spending plans, budget disbursements or cash
           allocations made by coalition forces.” 5

           Seized and Vested Asset Guidance. DoD did not provide adequate guidance to
           ensure that finance personnel obtained and maintained documentation supporting
           the justification and use of seized and vested asset payments. DoD did not
           provide guidance over seized and vested assets until May 2003, and it did not
           address roles, responsibilities, and procedures regarding the use of seized and
           vested assets. DoD provided detailed guidance for seized and vested assets when
           the USD(C)/CFO issued a memorandum on “Administering, Using and
           Accounting for Vested and Seized Property,” dated July 31, 2003. However, by
           July 2003, $1.2 billion of seized and vested assets had already been disbursed to
           the Iraqi ministries.

           This USD(C)/CFO memorandum provided guidance to the CPA for working with
           the Iraqi ministries to identify and develop requirements for spending plans. The
           CPA was to provide the Office of the Under Secretary of Defense (Comptroller)
           and the Army Headquarters Budget Office with the spending plans. Although
           these spending plans would have provided support for the accounting and use of
           seized and vested asset payments, the DoD guidance did not require them to be
           provided to disbursing personnel making the payments. DoD should develop
           guidance for documentation needed to support seized and vested asset payments
           to foreign government representatives. To facilitate transparency, the guidance
           should require seized and vested asset payment vouchers to be supported with
           documentation such as the spending plans used in determining the amount of
           funds to be paid.

Coalition Partners
           Twenty-two payment vouchers, totaling $134.8 million, were for CERP payments
           to Coalition Partners to initiate and execute a variety of non-construction and
           construction projects in their areas of responsibility. DoD could not provide a
           complete audit trail for CERP payments. Specifically, documentation was
           insufficient, and reconciliations were not performed. DoD guidance did not
           contain requirements for documentation and reconciliation of CERP payments.

           Audit Trail. None of the 22 CERP payment vouchers we reviewed contained
           sufficient supporting documentation to provide reasonable assurance that these
           funds were used for their intended purposes. For example, one payment voucher
           provided to Multi-National Division – Northeast (South Koreans) for $8 million
           contained only a “Purchase Request and Commitment” form and a memorandum
           acknowledging that foreign Coalition forces cannot be certified as paying agents
           for U.S. Government funds. From this documentation, we could not verify that

5
    Office of the Special Inspector General for Iraq Reconstruction Audit Report: “Oversight of Funds
    Provided to Iraqi Ministries through the National Budget Process” (Report No. 05-004), dated
    January 30, 2005.



                                                     29
          the funds provided to Coalition Partners were used for CERP purposes. In
          addition, the Army had not performed any reconciliation of funds paid to
          Coalition Partners. The Army relied on the Coalition Partner’s comptroller to
          perform the reconciliation. To document CERP payments, the Army required the
          submission of project folders when projects were completed, but it did not require
          the reconciliation of payments.

          SIGIR also reported that many project files from Coalition Partners did not
          contain required supporting documentation. 6 In addition, SIGIR reported that
          Multi-National Corps – Iraq was unable to supply 29 percent of the requested
          project files. Multi-National Corps – Iraq guidance required that the Major
          Subordinate Commands provide the project files for completed project to Multi-
          National Corps – Iraq Headquarters. The Coalition Partners should have followed
          this guidance. The vouchers and attached documentation acknowledged that the
          Coalition Partners were to maintain a record of receipts and invoices that
          supported the funds issued on the voucher.

          Funds Provided to Coalition Partners. DoD did not provide adequate guidance
          to ensure that payments of CERP funds to Coalition Partners were properly
          supported and reconciled. Specifically, DoD guidance did not ensure that
          disbursing personnel obtained and retained documentation supporting the
          accounting and use of CERP funds provided to Coalition Partners. In addition,
          DoD has not developed procedures to reconcile CERP funds paid to Coalition
          Partners. As a result, the Army had limited oversight over CERP payments made
          to Coalition Partners and could not provide reasonable assurance that CERP funds
          were used for their intended purposes.

          The USD(C)/CFO establishes and supervises the execution of policies and
          procedures for the accounting and control of CERP funds. The USD(C)/CFO
          issued guidance on the use of CERP funds through a memorandum,
          “Commander’s Emergency Response Program (CERP) Guidance,” dated July 27,
          2005. However, this guidance provided limited instruction on the use of
          Coalition Partners as custodians of U.S. government funds during contingency
          operations.

          The Multi-National Corps – Iraq created guidance for Coalition Partner Major
          Subordinate Commands to use CERP funds. The Multi-National Corps – Iraq
          guidance provided the procedures for funding Coalition Partners using CERP
          funds. However, it did not provide sufficient procedures for supporting payments
          and reconciling payments of CERP funds to project documentation provided by
          Coalition Partner Comptrollers. (Reconciliation of CERP payments can be
          difficult, because one CERP payment voucher can pertain to numerous projects).

          To ensure that DoD properly supports and reconciles payments of CERP funds,
          the USD(C)/CFO should update the DoD FMR, volume 12, chapter 29 to require
          the reconciliation of funds that are paid to Coalition Partners. The DoD FMR,
          volume 12, chapter 29 should also be updated so that it is not limited to

6
    Office of the Special Inspector General for Iraq Reconstruction Audit Report: “Management of the
    Commander’s Emergency Response Program in Iraq for Fiscal Year 2006” (Report No. SIGIR-07-006),
    dated April 26, 2007.



                                                  30
    contingency operations in Iraq and Afghanistan and can apply to future
    contingency operations that may require the use of Coalition Partners as paying
    agents.

DoD FMR Contingency Operations Requirements
    The DoD FMR has not been updated to address seized and vested assets, and
    guidance on the use of CERP funds was not added until April 2005. However, to
    ensure that guidance will be available for future contingency operations, the
    USD(C)/CFO is in the process of updating the DoD FMR, volume 12 to include a
    chapter on “Administering, Using and Accounting for Funds and Property during
    Contingency Operations.” The chapter will incorporate the July 31, 2003,
    memorandum on procedures for the accountability for seized and vested assets.
    The procedures were originally developed for Iraq but will be modified for future
    contingency operations. The DoD FMR on contingency operations should be
    updated to reflect lessons learned from Iraq so that disbursing transactions made
    with other countries’ funds are auditable and transparent.

Recommendations, Management Comments, and Audit
  Response
    C. We recommend that Under Secretary of Defense (Comptroller)/Chief
    Financial Officer update DoD 7000.14-R, “DoD Financial Management
    Regulation,” volume 12, chapter 29 to:

            1. Specify documentation needed to support seized and vested asset
    payments to foreign government representatives. At a minimum, the policy
    should require documentation sufficient to provide an audit trail for such
    payments. The audit trail documentation should include supporting budget
    details and spending plans that can be reconciled to payment vouchers.

    Management Comments. The Deputy Chief Financial Officer partially
    concurred with the recommendation. The Deputy stated USD(C)/CFO staff are
    incorporating the July 31, 2003 memorandum titled, “Appendices for Procedures
    Applicable to Vested and Seized Iraqi Property” into the DoD FMR and adding a
    section on records retention and disposition during contingency operations. The
    Deputy stated that he does not agree that the audit trail documentation should
    include supporting budget details and spending plans that can be reconciled into
    payment vouchers, arguing that it is not a disbursing office responsibility.

    Audit Response. The Presidential memorandum, dated April 30, 2003,
    prescribed that all seized and vested Iraqi assets would be properly accounted for,
    audited, and used to assist the Iraqi people. The payments were to be based on
    spending plans and budgets, which would document the support for the
    justification and use of seized and vested assets. Without such support, there is
    no




                                        31
audit trail that would be needed to meet the prescribed requirement. We request
that the Deputy reconsider his position and provide additional comments to the
final report.

      2. Require the reconciliation of funds that are paid to Coalition
Partners.

Management Comments. The Deputy Chief Financial Officer partially
concurred and stated that the DoD FMR requires all funds advanced to Coalition
Partners to be reconciled when the Coalition Partners complete the assigned
mission and turns in the DD Form 1081, Statement of Agent Officer’s Account,
as a paying agent.

Audit Response. Only the Multi-National Division-Southeast – United Kingdom
is reconciling funds using the process described in management’s comments. The
other Coalition Partners are being provided funds without reconciling. The
reconciliation of funds provided to Coalition Partners should be a requirement
and should be documented in DoD FMR volume 12, chapter 29. We request that
the Deputy reconsider his position and provide additional comments to the final
report.

        3. Establish policy on the use of Coalition Partners as paying agents
that is suitable for use in future contingency operations with other foreign
government representatives.

Management Comments. The Deputy Chief Financial Officer partially
concurred with the recommendation. He stated that paying agents must be U.S.
citizens, and the DoD FMR, volume 5, chapter 2, provides the duties and
responsibilities of paying agents. They will continue to require a waiver for all
non-U.S. citizens acting as paying agents.

Audit Response. The waiver requirement for Coalition Partners to be paying
agents should be documented in the DoD FMR volume 12, chapter 29 or in
volume 5, chapter 2. In addition, the waiver request and approval process should
also be documented in the DoD FMR. We request that the Deputy reconsider his
position and provide additional comments to the final report.




                                    32
                    D. Advanced Iraqi Funds
                    The U.S. Army Corps of Engineers Finance Center has been unsuccessful
                    in its attempts to resolve the $5.7 million of advanced Iraqi seized and
                    vested asset funds. The Corps Finance Center did not contact the Office
                    of the Under Secretary of Defense (Comptroller) to obtain direction on the
                    disposition of the funds. As a result, the Corps has not made these funds
                    available to pay for Iraqi debts with the U.S. Government.

Iraqi Funds Availability
           In January 2006 and October 2006, the Corps Finance Center placed $5.7 million
           in unused seized and vested asset advance funds in a suspense account, where
           they remained unavailable to use for their intended purposes. 7 Our sample
           included 3 vouchers totaling $21.1 million in seized and vested asset advances to
           the Corps. The Corps provided documentation to support the disbursement of
           $17.3 million of these advances. The remaining $3.9 million in seized and vested
           asset advances were not used on contracts. The Corps Finance Center attempted
           to return the $3.9 million of unused funds to the CPA by wire transfer. However,
           the funds were returned to a suspense account and remained there for 21 months,
           until we identified them in September 2007. In addition, we determined that 4
           additional advances, totaling $1.9 million, were also placed into the suspense
           account. 8

           Iraqi Funds. In a May 29, 2003 memorandum from the Deputy Secretary of
           Defense, the CPA was given control of Iraqi seized and vested assets (see
           Finding C). The CPA made payments to the Corps on behalf of the Iraqi
           Government. As a result, the CPA issued $5.7 million in Iraqi assets to the Corps.
           The purpose of these funds was to assist the Iraqi people in the reconstruction of
           Iraq.

           In addition, the Corps billed the Iraqi Government $32.5 million for services
           provided. The Iraqi Government has paid the U.S. Government $21.8 million,
           and a $1.5 million credit was applied to an open bill. As a result, there is still a
           total of $9.2 million in debt owed to the U.S. Government by the Iraqi
           Government.

           Wire Transfers. In December 2005, the Corps Finance Center attempted to wire
           transfer $5.6 million in unused advance funds to the CPA through the Central
           Bank of Iraq. The unused advance funds were excess funds not used for services

7
    The DoD FMR defines “advances” as disbursements of money from the Department of Treasury accounts
    before performance has been certified by an authorized DoD receiving official and “suspense account” as
    an expenditure account established to account for receipts (1) held temporarily and later refunded or paid
    into some other fund of the Government, or (2) held by the Government for others and paid out at the
    direction of the owner.
8
    Because of rounding, the unused funds, $3.9 million and $1.9 million, do not equal the total vested and
    seized assets of $5.7 million. In addition, the difference between the total of the three vouchers,
    $21.1 million, and the supported vouchers, $17.3 million is not equal to the $3.9 million in unused funds,
    also because of rounding.



                                                       33
    provided by the Corps. The Corps Finance Center transferred the funds to a
    suspense account, where they would remain until the wire transfer was completed.
    According to the disbursing officer, the Central Bank of Iraq sent the $5.6 million
    back to the Corps Finance Center suspense account because the CPA bank
    account was invalid as a result of the CPA being dissolved in June 2004. The
    disbursing officer added that as a result of the Central Bank of Iraq returning
    these funds, the Corps Finance Center did not attempt to return an additional
    $0.1 million (the difference between $5.6 million and the previously mentioned
    $5.7 million). Instead, in October 2006 it placed the funds in a suspense account
    to await final disposition.

    The Corps Finance Center tried to identify the appropriate account holder in its
    initial attempt to transfer the funds to the Central Bank of Iraq. However, after
    the funds were returned, it did not take the necessary actions to identify the
    appropriate account holder. The Joint Area Support Group took over the U.S.
    Government responsibilities formerly handled by the CPA. The Corps Finance
    Center should have contacted or sought guidance from the USD(C)/CFO and the
    Joint Area Support Group to identify a resolution for the funds so that the funds
    could be put to better use. The $5.7 million of Iraqi seized and vested asset funds
    remained in a suspense account until September 2007, when the Corps moved
    them to advance accounts.

    Because the funds remained in a suspense account, the Corps Finance Center did
    not make the $5.7 million in seized and vested assets available for other Iraqi
    projects or to pay for Iraqi debts with the U.S. Government. By leaving the funds
    in a suspense account and not identifying the appropriate account holder, the
    Corps Finance Center was unable to make the funds available for assisting the
    Iraqi people in the reconstruction of Iraq in a timely manner.

Management Actions
    We had recommended that the USD(C)/CFO collaborate with the Corps to
    identify an appropriate resolution of the $5.7 million in seized and vested assets.
    On December 12, 2007, the Director of Resource Management for the Chief of
    Engineers issued a memorandum for the USD(C)/CFO requesting guidance on the
    disposition of funds received from the CPA by the Corps. Specifically, they
    requested guidance from the Office of the Under Secretary of Defense
    (Comptroller) regarding the disposition of residual advanced funds currently held
    by the Corps and the settlement of $9.2 million delinquent debt owed by the
    Government of Iraq. As a result of this action by the Corps, we are not making a
    recommendation.

Management Comments on the Finding and Audit Response
    Army Corps of Engineers Comments. Although not required to comment, the
    Corps stated that as a result of a $1.5 million credit being applied to an open bill,
    the original $10.7 million debt owed by the Government of Iraq was reduced to
    $9.2 million. In addition, the Corps stated that putting the funds in a suspense
    account was appropriate because the CPA no longer existed. They stated that


                                          34
OUSD(C)/CFO is preparing a memorandum allowing the Corps to liquidate
delinquent accounts receivables from the Government of Iraq with the
$5.7 million in Iraqi seized assets.

Audit Response. The report was adjusted to accurately reflect the reduction in
debt owed by the Government of Iraq. In addition, the report now reflects that the
Corps could not dispose of the funds in a timely manner because the CPA no
longer existed.




                                    35
Appendix A. Scope and Methodology
   We conducted this performance audit from May 2006 through December 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions, based on our audit
   objectives.

   We selected a statistical sample from a universe of 183,486 payments valued at
   $10.7 billion. See Appendix B for more information on the statistical sample.
   The universe included commercial and miscellaneous payment vouchers from
   seven Army contingency disbursing stations located in Iraq, Kuwait and Egypt.
   Four disbursing stations were in Iraq (numbers 8550, 5579, 8547, and 8589), two
   were in Kuwait (8551 and 8748), and one was in Egypt (8788). Our statistical
   sampling approach resulted in the selection of 789 vouchers valued at a total of
   $3.5 billion that dated from April 2001 through June 2006. About 98.8 percent of
   the dollar value of the vouchers in our sample was paid after January 2003. We
   analyzed the selected payment vouchers to determine whether internal controls
   over the payment process and disbursement voucher preparation provided
   reasonable assurance that the payments were properly supported.

   We reviewed the statutes and regulations in Appendix D and determined that
   there were 53 compliance requirements for a vendor or contract payment. We
   also coordinated the 53 criteria with DFAS Indianapolis Operations Internal
   Review and Army Finance Command personnel. Of the 53 compliance criteria,
   we determined that 27 were the minimum necessary to support a payment and
   mitigate the risk of making erroneous payment. The criteria addressed elements
   such as missing or defective invoices, missing or defective receiving reports, and
   uncertified vouchers. We reviewed the 702 sampled commercial payments for
   compliance with the 27 criteria. If a payment voucher did not meet one or more
   of the 27 criteria, the payment was considered not minimally supported. The
   remaining 26 criteria were not considered essential to determine entitlement for
   payment while in a military contingency operation but were still required for
   compliance with statutes and regulations. Payment vouchers with errors only in
   these 26 criteria were considered supportable but noncompliant. We had initially
   identified 152 payments as not being minimally supported. The DoD OIG
   provided the Army and DFAS Rome 90 days to locate the missing support. The
   Army and DFAS found documentation to support an additional 27 of the 152
   payments.

   In addition, DoD OIG auditors stationed in Iraq researched questions on specific
   vendor and contract payments. The DoD OIG auditors interviewed finance
   personnel about disbursing training received prior to their deployment to Iraq.
   The DoD OIG auditors also coordinated with Army personnel to locate missing
   voucher documentation.

   We reviewed payment vouchers and supporting documentation for 75 payments
   made to foreign government representatives and compared them with guidance


                                       36
created as a result of Executive Order 13290 as discussed in Finding C. We
reviewed the guidance provided by the Under Secretary of Defense
(Comptroller)/Chief Financial Office and the Multi-National Corps – Iraq. We
also reviewed payment vouchers to determine whether the supporting
documentation provided assurance that funds were used for their intended
purposes. We requested spending plans that would support payments from Office
of the Under Secretary of Defense (Comptroller)/Chief Financial Office, Army
Budget Office, and DFAS. We also obtained budgetary information from the
Coalition Provision Authority Web site. We followed up on procedural issues
with the Under Secretary of Defense (Comptroller)/Chief Financial Office, and
the Multi-National Corps-Iraq to obtain spending plan and budget information.

We reviewed audit reports issued by the Special Inspector General for Iraqi
Reconstruction (SIGIR) (see Appendix C.) We also discussed audit results with
SIGIR and former SIGIR personnel knowledgeable with the audit work.

We interviewed personnel and reviewed documentation from the Corps Finance
Center and the finance and accounting officer from the Gulf Region Division to
resolve questions regarding contracts for sewer repairs in Baghdad, Iraq. We also
interviewed representatives of the 3rd Army Headquarters to discuss the obligation
of funds used Iraq and Kuwait. We decided to defer the review of funding
obligations to a follow-on audit.

Use of Computer-Processed Data. We used the Army’s Data Element
Management Accounting Report system to select our sample of commercial
payments. We tested the reliability of the Data Element Management Accounting
Report data during our sampling process, and the data matched the vouchers we
reviewed. We did not test the Data Element Management Accounting Report
system for completeness. Not evaluating the completeness did not affect the
results of the audit.

Use of Technical Assistance. Operations Research Analysts from the
Quantitative Methods Directorate used sampling methods to provide the auditors
with a statistical sample of vouchers from the universe of vouchers paid by the
seven Army contingency disbursing stations. They also projected the
not-properly-supported, noncompliant, total-error, and no-error results by voucher
and dollar value from the statistical sample over the universe of commercial
voucher payments. See Appendix B for details regarding the statistical sample
and analysis furnished by the Quantitative Methods Directorate.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    37
Appendix B. Statistical Sampling Methodology

Sampling Plan
           Sampling Purpose. We used statistical sampling to evaluate the statutory and
           regulatory compliance of commercial payments made by Army contingency
           disbursing stations. A statistical sample would allow for the projection of the
           sample results over the entire population.

           Universe. DFAS Indianapolis Operations provided a data file for each of the
           seven Army contingency disbursing stations containing all commercial payments
           made from their inception through June 2006. Taken together, the files contained
           183,486 records with a total dollar value of $10,723,982,947.

           Sampling Design. We used a stratified sampling design developed by operations
           research analysts in the Quantitative Methods Directorate of the DoD Office of
           the Inspector General. The stratified sample provided both large- and
           small-dollar vouchers but still allowed for the results of the sample to be
           projected over the entire population. See Table B-1 for the strata breakdown and
           number of sample items by stratum.

                           Table B-1. Population Breakdown by Voucher Values
                                                                                                       Sample
                         Voucher Value 9                         Total Value             Size           Size
             $0 < Value ≤ $25,000                            $    820,458,198         142,447             50
             $25,000 < Value ≤ $100,000                          1,385,603,726          27,462           150
             $100,000 < Value ≤ $500,000                         2,240,884,590          11,041           150
             $500,000 < Value ≤ $1,000,000                        888,594,888            1,263           100
             $1,000,000 < Value ≤ $5,000,000                     2,351,180,783           1,084           150
             Value > $5,000,000                                  3,037,260,762             189           189
             Total                                           $10,723,982,947          183,486            789



Sampling Results
           The audit team provided the Quantitative Methods Directorate with sample results
           for 789 vouchers. The team identified 87 miscellaneous vouchers that were not
           commercial payments. Table B-2 summarizes the details in each stratum.

9
    The notation a < b means that a is less than b. The notation a ≤ b means that a is less than or equal to b.
    The notation a > b means that a is greater than b.



                                                        38
                                        Table B-2. Sample Results By Stratum
                                                      Non-       Not Properly      Non-
               Voucher       Population    Sampl    commercial    Supported      compliant    Total     No
                Value          Size        e Size    Vouchers      Errors          Errors     Errors   Errors
             $0 < Value ≤     142,447        50
             $25K                                         6            19            21         40         4
             $25K <
             Value ≤
             $100K             27,462       150           5            34            94        128         17
             $100K <
             Value ≤
             $500K             11,041       150           4            29           102        131         15
             $500K <
             Value ≤ $1M       1,263        100           4            15            77         92         4
             $1M < Value
             ≤ $5M             1,084        150           12           19           119        138         0
             > $5M                189       189           56            9           124        133         0
             Total            183,486       789           87          125           537        662         40


            Analysis and Interpretation. The planned analysis included making estimates
            of each category of errors for vouchers, the dollar values of errors associated with
            each category of errors, and the summary estimates for total errors. We projected
            the results of the sample using the original stratified sampling design. This
            yielded unbiased, but conservative estimates, because the estimated error rates are
            based on an overstated sample size.

            The results for these projections have been calculated at the 90-percent
            confidence level and are reported below 10 :




10
     The formulas we used are based on those in Sampling Techniques, 3rd edition, by William G. Cochran,
     pp.56-58, 91-95, 107-108.



                                                     39
                                Table B-3. Not-Properly-Supported Errors
                               Lower Bound 11               Point Estimate 12             Upper Bound
             Rate                     0.241                       0.342                        0.444
             Number                  44,148                       62,825                      81,502


            Table B-3 can be interpreted as follows: based on the sample results, we project
            with 90 percent confidence level 13 that between 24.1 percent and 44.4 percent of
            the 183,486 vouchers will have errors that result in not-properly-supported
            payments, with the point estimate of 34.2 percent. The corresponding number of
            vouchers ranges from 44,148 through 81,502, with a point estimate of 62,825.
            Tables B-4, B-5 and B-6 should be interpreted in a similar manner.

                                      Table B-4. Noncompliance Errors
                                Lower Bound                   Point Estimate              Upper Bound
             Rate                     0.368                       0.471                        0.575
             Number                  67,525                       86,502                     105,478


            Table B-5 projects the vouchers that will have either a not-properly-supported
            error or a noncompliance error. The point estimate is 81.4 percent.

                                              Table B-5. Total Errors
                                Lower Bound                   Point Estimate              Upper Bound
             Rate                     0.728                       0.814                        0.900
             Number                 133,518                      149,327                     165,135


            Table B-6 projects the vouchers that will be properly supported and have no
            compliance errors. The point estimate is 8.5 percent.


11
      Confidence intervals (called the lower bound and upper bound) are an estimate of a population parameter
     that consists of a range of values bounded by what are known as the upper and lower confidence limits.
12
      A point estimate is a statistically based estimate within a population boundary that is a single numerical
     value.
13
     The confidence level is a number, stated as a percentage, that expresses the degree of certainty associated
     with an interval estimate of a population parameter.



                                                         40
                              Table B-6. No Errors
                Lower Bound               Point Estimate        Upper Bound
 Rate                0.023                    0.085                   0.148
 Number              4,152                   15,663                27,173


The results for the dollar value projections have been calculated at the 90 percent
confidence level and are reported below:

                     Table B-7. Noncompliance Errors
    Lower Bound                   Point Estimate             Upper Bound
    $6,007,917,952               $6,343,468,645             $6,679,019,338


Table B-7 can be interpreted as follows: based on the sample results, we project
with 90 percent confidence level that the noncompliance error value is between
$6,007,917,952 and $6,679,019,338, with the point estimate of $6,343,468,645.
Tables B-8, B-9 and B-10 should be interpreted in a similar manner.

                Table B-8. Not-Properly-Supported Errors
    Lower Bound                   Point Estimate             Upper Bound
    $1,186,987,280               $1,416,604,003             $1,646,220,726


Table B-9 projects the error value of the not-properly-supported or
noncompliance errors.

                             Table B-9. Total Errors
    Lower Bound                   Point Estimate             Upper Bound
    $7,438,306,313               $7,760,072,648             $8,081,838,983




                                     41
Table B-10 projects the value that will be properly supported and have no
compliance errors.



                          Table B-10. No Errors
    Lower Bound                Point Estimate              Upper Bound
    $328,510,139                $454,103,727               $579,697,315




                                   42
Appendix C. Prior Coverage
      During the last five years, the DoD IG, the Army Audit Agency (AAA), the Air
      Force Audit Agency (AFAA), the Coalition Provisional Authority Inspector
      General (CPA-IG) and the Special Inspector General for Iraq Reconstruction
      (SIGIR) have issued ten reports related to out-of-country payments. Unrestricted
      DoD IG reports can be accessed at www.dodig.mil/audit/reports. Unrestricted
      AAA reports can be accessed over the Internet at www.aaa.army.mil/reports.htm.
      Unrestricted CPA-IG and SIGIR reports can be accessed at
      www.sigir.mil/reports/audit.aspx. Unrestricted AFAA reports can be accessed at
      www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

DoD IG
      DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund
      in Southwest Asia-Phase III,” November 30, 2007

AAA
      AAA Report No. A-2005-0206-FFG, “Validation of the Statement of
      Accountability, Attestation of Disbursing Station Symbol Number 8551,”
      June 29, 2005

CPA-IG
      CPA-IG Report No. 05-001, “Coalition Provisional Authority Control of
      Appropriated Funds,” October 22, 2004

      CPA-IG Report No. 04-009, “Coalition Provisional Authority Comptroller Cash
      Management Controls Over the Development Fund for Iraq,” July 28, 2004

SIGIR
      SIGIR Report No. 07-006, “Management of the Commander’s Emergency
      Response Program in Iraq for Fiscal Year 2006,” April 26, 2007

      SIGIR Lessons Learned, “Lessons in Contracting and Procurement,” July 2006

      SIGIR Report No. 06-002, “Prompt Payment Act: Analysis of Expenditures Made
      from the Iraq Relief and Reconstruction Fund,” February 3, 2006

      SIGIR Report No. 05-025, “Management of the Commander’s Emergency
      Response Program for Fiscal Year 2005,” January 23, 2006

      SIGIR Report No. 05-006, “Control of Cash Provided to South Central Iraq,”
      April 30, 2005




                                         43
   SIGIR Report No. 05-004, “Oversight of Funds Provided to Iraqi Ministries
   through the National Budget Process,” January 30, 2005

AFAA
   AFAA Report No. F2005-0011-FB1000, “Global War on Terrorism Funds
   Management,” June 20, 2005




                                     44
Appendix D. Disbursement Guidance

Federal Statutes and Regulations
     Section 3325 title 31, United States Code, “Vouchers,” specifies that a
     disbursing officer should only disburse money when vouchers have been certified
     by an authorized certifying officer. Certified vouchers submitted to a disbursing
     official should include the taxpayer identifying number of each payee.

     The Prompt Payment Act as implemented in 5 Code of Federal Regulations
     Part 1315 (2001), “Prompt Payment,” codifies the requirements that supporting
     documents must meet for proper payment.

     The Federal Financial Management Improvement Act of 1996 states that each
     agency must implement and maintain financial management systems that comply
     substantially with Federal systems requirements and applicable Federal
     accounting standards.

Federal System Requirements
     The Office of Federal Financial Management, “Core Financial System,”
     January 2006, states that audit trails must exist for transactions that are recorded
     as they move from the source through all document statuses. This requirement
     states that “adequate audit trails are critical to providing support for transactions
     and balances maintained by the core financial system.”

Federal Acquisition Regulation
     FAR 2.101, “Definitions,” specifies the micro-purchase threshold for
     acquisitions as $2,500; however, if determined by the head of the agency as being
     for contingency operations, the micro-purchase threshold outside the
     United States is $25,000. It also defines the simplified acquisition threshold as
     $100,000, except for acquisitions of supplies or services determined by the head
     of the agency to be for contingency operations. The threshold then increases to
     $1,000,000 for contracts awarded and performed or for purchases made outside
     the United States.

     FAR 13.306, “SF-44, Purchase Order-Invoice-Voucher,” describes the SF-44
     as a multipurpose purchase order form designed primarily for on-the-spot,
     over-the-counter purchases of supplies and nonpersonal services while away from
     the purchasing officer or at isolated activities. The FAR allows for use of the
     SF-44 if the following conditions are met:




                                          45
           •   the amount of the purchase is at or below the micro-purchase
               threshold, except for purchases made under unusual and compelling
               urgency in support of contingency operations;

           •   the supplies or services are immediately available;

           •   one delivery and one payment will be made; and

           •   the use of the SF-44 is more economical and efficient than use of other
               simplified acquisition procedures.

    FAR 18.201, “Contingency Operation,” states that the normal threshold for the
    use of the SF-44 is at or below the micro-purchase threshold; however, agencies
    may establish higher dollar limitations for purchases made to support a
    contingency operation.

    FAR 32.905, “Payment Documentation and Process,” states that a payment
    will be based on receipt of proper invoice and satisfactory contract performance.
    This section of the guidance provides a list of 10 elements that a proper invoice
    must include. In addition, the guidance states that all invoice payments must be
    supported by a receiving report or other Government documentation authorizing
    payment.

Treasury Financial Manual
    Volume 1, Part 2, Chapter 3100, “Instructions for Disbursing Officers’
    Reports,” provides instructions for disbursing officers that perform disbursing
    operations. Disbursing offices are identified by a 3- or 4-digit code that must be
    shown on all forms.

    Volume 1, Part 4, Chapter 2000, “Payment Issue Disbursing Procedures,”
    prescribes disbursing procedures. Certifying officers must sign the voucher, with
    their name typed or printed below the signature as evidence of certification. In
    addition, vouchers must identify all appropriations cited and their respective
    transaction amounts.

Defense Federal Acquisition Regulation Supplement
    Defense Federal Acquisition Regulation Supplement 213.306, “SF-44,
    Purchase Order-Invoice-Voucher,” states that the micro-purchase limitation
    applies to all purchases, with the exception that purchases not exceeding the
    simplified acquisition threshold may be made for overseas transactions by
    contracting officers in support of a contingency operation or a humanitarian or
    peacekeeping operation.




                                        46
DoD 7000.14-R, the “DoD Financial Management Regulation”
    Volume 5, Chapter 11, “Disbursements,” describes a disbursement as a
    payment to an individual or organization for goods furnished or services rendered.
    The disbursement voucher is the authority for disbursing officers to make
    payments of Government obligations and is the source document for liquidation
    of obligations. Therefore, disbursement vouchers must contain complete and
    accurate data. In addition, the disbursing officers must only make disbursements
    from vouchers certified by authorized certifying officers. Cashiers must not make
    cash payments until they have positively identified the payee. The disbursement
    voucher must also indicate whether the disbursement was made by electronic
    funds transfer, U.S. Treasury check, cash, or as no check/voucher for transfer.

    Volume 5, Chapter 21, “Disbursing Office Records,” provides guidance on the
    retention of disbursing office records. Disbursement vouchers must be retained
    for a minimum period of 6 years and 3 months.

    Volume 10, “Contract Payment Policy and Procedures,” contains guidance
    regarding financial authorizations for contract payments and collections among
    the Office of the Secretary of Defense, the Military Departments, the Chairman of
    the Joint Chiefs of Staff, the Combatant Commands, the Inspector General of the
    Department of Defense, the Defense Agencies, and the DoD Components.

Department of the Army
    Memorandum For Instruction, “Central Funding Standard Operating
    Procedures,” dated June 22, 2004, provides guidance to units operating in Iraq
    and Kuwait in support of Operation Iraqi Freedom. Specifically, it allows a
    disbursing officer, deputy disbursing officer, disbursing agent, or paying agent to
    receive and disburse cash for official business.

Defense Finance and Accounting Service
    DFAS-IN Manual 37-100-06, “The Army Management Structure Fiscal Year
    2006,” provides the codes and definitions for programming, budgeting,
    accounting, and manpower systems in use during fiscal year 2006 and subsequent
    years.

    DFAS-IN Regulation 37-1, “Finance and Accounting Policy
    Implementation,” identifies roles and procedures for providing finance and
    accounting support to DFAS Indianapolis Operations customers. It also provides
    guidance on budgetary and proprietary accounting, fund control, financial
    reporting, and vendor pay and travel entitlements.




                                         47
Appendix E. Results of Voucher Review


                                     Compliance Criteria

                                                            Statutory               Value of
                                                           Regulatory   Number       Errors
                                                            Source*     of Errors   (millions)
Total Noncompliance Vouchers- 662 for
$1,478.5 million

Total Lacking Minimum Documentation for
Payment Support- 125 for $137.0 million

  Missing receiving report                                   C, H, J       23          32.5
  Missing invoice                                            C             23          31.0
  No certifying officer signature                            A, E, F        5          41.7

  No payee signature for receipt of cash                     F             15            5.1
  No contract number on invoice                              C, H          31          18.7
  SF-1034 voucher missing                                    F, G           2           0.3
  SF-1034 voucher - contains complete accounting
     classification                                          E, F           3            1.3
  SF-1034/SF-44 voucher - DSSN in the “brief” block          D, F          20           10.4
  SF-1034 voucher - total amount shown with related
     accounting classification                               E, F           4           6.7
  Invoice - vendor name present                              C,H            1           0.0
  Invoice - item description                                 C, H           2           7.2
  Invoice - quantity of goods or services rendered           C, H           6          16.7
  Invoice - unit of measure                                  C, H           2           3.0
  Invoice - total amount billed                              C, H           5           12.0
  Receiving report - contract number present                 C, H           1           2.7
  Receiving report - item description                        C, H           2           7.2
  Receiving report - unit of measure                         H              1           0.3
  Receiving report - quantity received                       C, H           5           7.7
  Receiving report - date of receipt                         C, H           5           3.0
  Receiving report - date of acceptance                      C, H           5            3.0
  Receiving report - signature of the receiving official     C, H           2           0.1
  SF-44 – missing                                            B              1           0.0
  SF-44 - ordered by signature                               L              2           0.1
  SF-44 - received by signature                              L              2           0.7



                                                   48
                               Compliance Criteria (cont,)

                                                        Statutory   Number
                                                       Regulatory      of       Value
                                                        Source*     Vouchers   (millions)
  SF-44 - same ordered by/received by signature          L              3           0.5
  SF-44 - certifying officer signature                   A, E, F,       1           0.0
  SF-44 - payee signed for cash                          F              9           0.8

Total Supported Payments Not Meeting Other
 Documentation Requirements- 537 for
$1,341.5 million

  No contact information on receiving report             C, H         394      1,185.6
  No payment terms on invoice                            C, H         343        333.6
  No contact information on invoice                      C, H         359        773.3
  No taxpayer identification number on voucher           A, F          67        136.8
  No foreign payee identification number on voucher      F            402        547.3
  SF-1034 voucher - complete name of paying
     disbursing office                                   F              7          6.5
  SF-1034 voucher - mailing address of the paying
     disbursing office                                   F              7          6.5
  SF-1034 voucher - date the voucher was prepared        F              0          0.0
  SF-1034 voucher - sub accounts of the same
     appropriation are grouped together                  F              0          0.0
  SF-1034 voucher - conversion rate to US dollars
     included for foreign currency disbursements         F              1           1.2
  SF-1034 voucher - disbursement amount has been
     changed or altered                                  F              4          6.3
  Invoice - vendor invoice number                        C, H          54         14.9
  Invoice - unit price                                   C, H           7          5.1
  Invoice - tax identification number for U.S.
     companies                                           C, H          58         66.8
  Invoice - banking information for electronic funds
     transfer                                            C, H         130        462.3
  Invoice - original document (not a copy)               K            134        209.7
  Invoice - submitted timely                             K             13         23.5
  Receiving report - contract/purchase order missing     I             38         88.2
  Receiving report - vendor name                         H              2          0.7
  Receiving report - printed name of accepting or
     approving official                                  C, H         118        413.4
  Receiving report – title of approving official         C, H          71        133.1
  Misuse of SF-44                                        B             18          6.0
  Method of disbursement not identified on voucher       F             19         45.8




                                                  49
                                Compliance Criteria (cont,)

*Statutory Regulatory Source
A - 31 U.S.C. 3325
B - FAR 13.306
C - FAR 32.905
D - Treasury Financial Manual, volume 1, part 2, chapter 3100
E - Treasury Financial Manual, volume 1, part 4, chapter 2000
F - DoD FMR, volume 5, chapter 11
G - DoD FMR, volume 5, chapter 21
H - DoD FMR, volume 10, chapter 1
I - DoD FMR, volume 10, chapter 7
J - DoD FMR, volume 10, chapter 8
K - DoD FMR, volume 10, chapter 9
L - Central Funding Standard Operating Procedures




                                                 50
Appendix F. Payment Criteria Comparison
                               Comparison of DFAS Rome and DoD OIG
                                    Voucher Support Checklists

             Original DFAS Rome Payment                             Items Needed to Support a Payment
                   Voucher Checklist
                Similarities                                                     Similarities
       1.   Receiving Report                                   1.    Receiving Report
       2.   Invoice                                            2.    Invoice
       3.   Certifier’s signature                              3.    Certifying officer signature (SF-1034)
                                                               4.    SF-1034/SF-44 Voucher – DSSN in
       4.   Disbursing Station Symbol Number                         “Brief” block
       5.   Contract number                                    5.    Contract number on invoice
       6.   Line of accounting                                 6.    SF-1034 Voucher – Complete accounting
                                                                     classification
            Differences                                                        Differences
       7.   Contract (first or final payment)                  7.  Payee signature for cash
                                                               8.  SF-1034 Voucher
       8.   Voucher number 14
                                                               9.  SF-1034 Voucher – Total amount with
       9.   Date                                                   related accounting classification
                                                               10. Invoice – Vendor name present
                                                               11. Invoice – Item description
                                                               12. Invoice – Quantity of goods or services
                                                                   rendered
                                                               13. Invoice – Unit of measure
                                                               14. Invoice – Total amount billed
                                                               15. Receiving Report – Contract number
                                                               16. Receiving Report – Item description
                                                               17. Receiving Report – Unit of measure
                                                               18. Receiving Report – Quantity received
                                                               19. Receiving Report – Receipt date
                                                               20. Receiving Report – Acceptance date
                                                               21. Receiving Report – Receiving official
                                                                   signature
                                                               22. SF-44
                                                               23. SF-44 Ordered by signature
                                                               24. SF-44 Received by signature
                                                               25. SF-44 Signature same for ordered by and
                                                                   received by
                                                               26. SF-44 Certifying officer signature
                                                               27. SF-44 Payee signed for cash


14
      To select the sample payments for this audit, the voucher number and date were required. As a result, all
     sampled items contained a voucher number and date. These data elements were not used as criteria for
     the payment support documentation or compliance review.



                                                       51
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          52
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        53
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics Comments
                                                  Final Report
                                                   Reference




                                                  Renumbered
                                                  to B.1 and
                                                  revised




                                                  Deleted




                       55
56
Office of the Under Secretary of Defense
(Comptroller)/ Chief Financial Officer Comments




                       57
58
59
60
Department of the Army Comments




                     61
62
63
Defense Finance and Accounting Service
Comments




                       64
65
66
U.S. Army Corps of Engineers Finance Center
Comments
                                              Final Report
                                               Reference




                                              Revised
                                              Page 31




                       67
Final Report
 Reference




Revised
Page 32




               68
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Craig W. Michaels
Paul R. Glenn
Carl T. Hansen
William F. Kansteiner
Brandon A. Burton
Beverly J. Charlton
Kevin B. McNeil
Jonica M. McPeak
Martin J. Radtke
Jamie E. Vandesteene
Lusk F. Penn
Kandasamy Selvavel
E. Ellen Kleiman-Redden
